                                                                                             Office of Inspector General


                                                                                             Washington, D.C. 20201



                                                 MAY 18 2009



TO:               Edwin L. Walker
                  Acting Assistant Secretary for Aging
                  Administration on Aging

                  ~~1fM~~
FROM:             ~'riRWright~ /S/
                  Deputy Inspector General
                    for Evaluation and Inspections


SUBJECT:          Memorandum Report: Performance Data for the Senior Medicare Patrol
                  Projects: May 2009 Performance Report, OEI-02-09-00170


This memorandum report presents performance data for the Senior Medicare Patrol
Projects. The Office ofInspector General (OIG) has collected these data since 1997. In
December 2005, the Administration on Aging (AoA) requested that OIG continue to collect
and report performance data for the Senior Medicare Patrol Projects to support AoA's
efforts to evaluate and improve the performance of these projects. OIG agreed to collect
performance data every 6 months but to report the data on an annual basis.

In 2008, the 57 Senior Medicare Patrol Projects had a total of 4,685 active volunteers.
Medicare funds recovered that were attributable to the projects were $21,068, and total savings
to Medicare, Medicaid, beneficiaries, and others were $65,735. The projects had fewer active
volunteers in 2008, compared to the number in 2007. In addition, Medicare funds recovered and
total savings to Medicare, Medicaid, beneficiaries, and others were lower in 2008, compared to
totals in 2007.

BACKGROUND

The Senior Medicare Patrol Projects recruit retired professionals to serve as educators and
resources to beneficiaries to detect and report fraud, waste, and abuse in the Medicare
program. At least one project is located in each of the 50 States, as well as in the District of
Columbia, Puerto Rico, Guam, and the Virgin Islands. In 2008, 57 Senior Medicare Patrol
Projects received a total of$9.3 million from AoA.

In 2007, AoA revised some of the performance measures to more accurately reflect the work of
the Senior Medicare Patrol Projects. AoA developed the following new performance measures,
among others: number of active volunteers, number of simple inquiries, and number of complex
issues. Active volunteers are individuals who are trained to assist with teaching beneficiaries



OEI-02-09-00170 Performance Data for the Senior Medicare Patrol Projects: May 2009 Performance Report
Page 2 – Edwin L. Walker


how to detect fraud, waste, and abuse in Medicare and other health care programs. Simple
inquiries from beneficiaries are quickly resolved with very little research or review. Complex
issues involve more detailed information related to an issue or a complaint that may warrant
further action by an investigative agency, such as the reporting of potential fraud and abuse by a
provider.

In addition, beginning in 2007, the Senior Medicare Patrol Projects were required to measure
health care expenditures for which the Medicare program, the Medicaid program, a beneficiary,
or other entity (e.g., secondary health insurer, pharmacy) was relieved of responsibility for
payment as a result of the projects. This performance measure is referred to as cost avoidance.
For example, if a beneficiary discovers charges for services he or she did not receive and the
project, on behalf of the beneficiary, receives a revised billing statement from the provider, the
project may report this as cost avoidance.

Tracking Systems
In 2001, the Centers for Medicare & Medicaid Services (CMS) required its contractors to
provide semiannual reports on the status of all cases referred by the Senior Medicare Patrol
Projects. These reports were referred to as the Harkin Grantee Tracking System reports. The
projects submitted these reports as documentation of recovered funds.

Beginning in 2007, AoA developed a Web-based system named the Seniors Medicare Assistance
and Reporting Tool for Fraud and Complaint Tracking System (SMART FACTS). The Senior
Medicare Patrol Projects can use SMART FACTS to track and report activities and complaints
and to refer cases directly to an investigative agency. With the implementation of this new
system, CMS and AoA agreed to phase out the Harkin Grantee Tracking System reports.

METHODOLOGY

This review is based on data reported by the Senior Medicare Patrol Projects. In addition, we
requested and reviewed documentation from the projects for the actual funds recovered to the
Medicare program, the Medicaid program, beneficiaries, and others that were attributable to the
projects. We also requested and reviewed documentation for the measure on cost avoidance.
We did not review documentation for the other performance measures. The results are presented
in detail in the appendixes.

This review was conducted in accordance with the “Quality Standards for Inspections” issued by
the President’s Council on Integrity and Efficiency and the Executive Council on Integrity and
Efficiency.

RESULTS

Results for 2008
In 2008, the 57 projects had a total of 4,685 active volunteers. These volunteers educated
beneficiaries in 6,869 group education sessions and held 24,505 one-on-one counseling sessions.




OEI-02-09-00170 Performance Data for the Senior Medicare Patrol Projects: May 2009 Performance Report   2
Page 3 – Edwin L. Walker


In addition, the projects conducted 785,468 media outreach events1 and 5,742 community
outreach education events. As a result of these training sessions and events, the projects received
40,734 simple inquiries. They also received 4,025 inquiries involving complex issues, of which
441 were referred for further action. Medicare funds recovered attributable to the projects were
$21,068 and actual savings to the beneficiaries attributable to the projects were $34,548. Total
savings to Medicare, Medicaid, beneficiaries, and others were $65,735. Additionally, cost
avoidance on behalf of the Medicare program, the Medicaid program, beneficiaries, and others,
totaled $73,006.

Results since 1997
Since the inception of the program 12 years ago, a total of 72 projects (17 of which had closed as
of December 2008) reported educating beneficiaries in 67,491 group education sessions and
1,008,243 one-on-one sessions. In addition, the projects reported conducting 957,960 media
outreach events and 63,147 community outreach education events. Actual Medicare funds
recovered attributable to the projects were $4,521,399. Total savings to Medicaid, beneficiaries,
and other payers were approximately $101 million. Most of the $101 million in savings was the
result of one project’s involvement in adjustments to Medicaid claims for individuals entitled to
both Medicaid and Medicare.

Documentation of Recovered Funds
In 2008, 7 of the 57 projects submitted eight forms of documentation. Five forms of
documentation showed funds recovered to the Medicare program. The three other forms of
documentation showed that the cases were still pending and that Medicare funds had not yet
been recovered.

Comparison With Results for 2007
The projects had fewer active volunteers in 2008, compared to 2007. In 2008, projects had
4,685 volunteers, compared to 10,338 in 2007. The number of group education sessions held by
the projects increased slightly in 2008; however, there was a large decrease in the number of
one-on-one counseling sessions in 2008, compared to 2007. Specifically, projects reported
educating beneficiaries in 6,869 group education sessions and 24,505 one-on-one counseling
sessions in 2008, compared to 6,587 group education sessions and 131,359 one-on-one
counseling sessions in 2007. In addition, Medicare funds recovered and total savings to
Medicare, Medicaid, beneficiaries, and others were lower in 2008, compared to 2007. In 2008,
Medicare funds recovered attributable to the projects were $21,068, compared to $302,318 in
2007. Total savings to Medicare, Medicaid, beneficiaries, and others attributable to the projects
were $65,735 in 2008, compared to $454,068 in 2007.




1The large number of media outreach events reported by the projects in 2008 may be due, in part, to the fact that
AoA instructed the projects to count each time an event was aired or an article was published as a separate media
outreach event.



OEI-02-09-00170 Performance Data for the Senior Medicare Patrol Projects: May 2009 Performance Report        3
Page 4 – Edwin L. Walker


CONCLUSION

In 2008, the 57 Senior Medicare Patrol Projects had a total of 4,685 active volunteers.
Medicare funds recovered that were attributable to the projects were $21,068 and total savings to
Medicare, Medicaid, beneficiaries, and others were $65,735. The projects had fewer active
volunteers in 2008, compared to the number in 2007. In addition, Medicare funds recovered and
total savings to Medicare, Medicaid, beneficiaries, and others were lower in 2008, compared to
totals in 2007.

We continue to emphasize that the number of beneficiaries who have learned from the Senior
Medicare Patrol Projects to detect fraud, waste, and abuse and who subsequently call the OIG
fraud hotline or other contacts cannot be tracked. Therefore, the projects may not be receiving
full credit for savings attributable to their work. In addition, the projects are unable to track
substantial savings derived from a sentinel effect whereby fraud and errors are reduced in light of
Medicare beneficiaries’ scrutiny of their bills.

As agreed, we will continue to monitor the projects and will provide AoA with annual summary
reports of performance data. This memorandum report is being issued directly in final form
because it contains no recommendations. If you have comments or questions about this
memorandum report, please provide them within 60 days. Please refer to report number
02-09-00170 in all correspondence.




OEI-02-09-00170 Performance Data for the Senior Medicare Patrol Projects: May 2009 Performance Report   4
  Senior Medicare Patrol Projects’ Performance Measure Results




                                                                                            

List of Appendixes

Appendix A: Summary of Performance for All Projects Since 1997………………………….………6




                                                                                     

Appendix B: Summary of Performance for All Projects for 2008………………………….……........8




                                                                                     

Appendix C: Projects’ Results for Each Performance Measure for 2008……………...……………...10




                                                                                        

Appendix D: Individual Project Results for 2008………………………………………………..…... 35




                                                                                        

Appendix E: Performance Measures Definitions……………………………………………………...93





                                                                        5
   Δ       A P P E N D I X               ~       A




                         Summary of Performance for All Projects Since 1997




                                                                                                              

The following table provides overall performance for all 72 projects that have operated since 1997.




                                                                                                      

Totals may not add up because of rounding.




                                             





                                                                                                          6
A P P E N D     I X      ~      A




                                    

                                Summary of Performance for All Projects Since 1997
                                                                                                     1997–2007         2008    Total Since 1997
                                            OUTPUT MEASURES
1          Total number of active volunteers                                                            10,338        4,685             15,023
2          Total number of volunteer training hours                                                    196,792       42,476            239,268
3          Total number of volunteer work hours                                                        308,563      112,832            421,395
4          Number of media outreach events                                                             172,492      785,468            957,960
5          Number of community outreach education events conducted                                       57,405       5,742             63,147
6          Estimated number of people reached by community outreach education events                 20,834,546    1,517,132        22,351,678
7          Number of group education sessions for beneficiaries                                          60,622       6,869             67,491
8A         Number of beneficiaries who attended group education sessions                              2,274,261     308,724          2,582,985
8B         Increase in the number of beneficiaries who understand how reading their Medicare
           Summary Notice can help identify billing fraud or errors                                      25,272      14,450             39,722
8C         Increase in the number of beneficiaries who understand why it is important to seek
           assistance with billing questions                                                             25,497      17,808             43,305
8D         Increase in the number of beneficiaries who know why it is important to protect their
           Medicare and Social Security numbers                                                          23,822      12,451             36,273
9          Number of one-on-one counseling sessions held with or on behalf of a beneficiary            983,738       24,505          1,008,243
10         Total number of simple inquiries received                                                    69,808       40,734            110,542
11         Total number of simple inquiries resolved                                                     60,738       40,380           101,118
12         Number of inquiries involving complex issues received                                         17,658        4,025            21,683
13A        Number of inquiries involving complex issues referred for further action                       4,004          441             4,445
13B        Total dollar amount referred for further action                                           $1,517,345   $2,343,299        $3,860,644
14         Number of complex issues resolved                                                              5,225        2,707             7,932
15         Number of complex issues pending further action                                                3,430        1,737             5,167
16         Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                  $7,448,327      $73,006        $7,521,333
17A        Actual Medicare funds recovered attributable to the projects                              $4,500,331      $21,068        $4,521,399
17B        Actual Medicaid funds recovered attributable to the projects                                $545,801           $0          $545,801
17C        Actual savings to beneficiaries attributable to the projects                              $3,132,995      $34,548        $3,167,543
           Other savings attributable to the projects (e.g., Supplemental Insurance, Social
17D        Security)                                                                                $97,478,025     $10,120        $97,488,145
17B-17D    Total savings to Medicaid, beneficiaries, and other payers                              $101,156,821     $44,668       $101,201,489
17A –17D   Total savings attributable to the projects                                              $105,657,152     $65,735       $105,722,887


                                                                                                          7
   Δ          A P P E N D I X                ~    B




                            Summary of Performance for All Projects for 2008

The following table provides data for the 57 Senior Medicare Patrol Projects that operated in 2008. The table provides the
performance measure results for the two 6-month reporting periods.

Totals may not add up because of rounding.

Two projects, the District of Columbia Friendship House Association and the Georgia Department of Human Resources, closed in
2008.

For performance measure #1, “Total number of active volunteers,” many of the volunteers are the same in both of the two 6-month
periods and therefore the numbers do not sum to the total for the year.

For performance measure #15, “Number of complex issues pending further action,” many of the complex issues are the same in both
of the two 6-month periods and therefore the numbers do not sum to the total for the year.




                                                                                                        8
A P P E N D     I X      ~      B




                                    

                                    Summary of Performance for All Projects for 2008
                                                                                                Jan–June         July–Dec    Total for 2008
                                         OUTPUT MEASURES
1          Total number of active volunteers                                                        3,078           3,412           4,685
2          Total number of volunteer training hours                                                24,029          18,447          42,476
3          Total number of volunteer work hours                                                    59,330          53,502         112,832
4          Number of media outreach events                                                        209,145         576,323         785,468
5          Number of community outreach education events conducted                                   3,069          2,673           5,742
6          Estimated number of people reached by community outreach education events              309,341        1,207,791      1,517,132
7          Number of group education sessions for beneficiaries                                      3,499          3,370           6,869
8A         Number of beneficiaries who attended group education sessions                          179,743         128,981         308,724
8B         Increase in the number of beneficiaries who understand how reading their
           Medicare Summary Notice can help identify billing fraud or errors                         7,756          6,694          14,450
8C         Increase in the number of beneficiaries who understand why it is important to seek
           assistance with billing questions                                                        9,651           8,157          17,808
8D         Increase in the number of beneficiaries who know why it is important to protect
           their Medicare and Social Security numbers                                               6,718           5,733          12,451
9          Number of one-on-one counseling sessions held with or on behalf of a beneficiary        10,441          14,064          24,505
10         Total number of simple inquiries received                                               20,648          20,086          40,734
11         Total number of simple inquiries resolved                                                20,458         19,922          40,380
12         Number of inquiries involving complex issues received                                     2,246          1,779           4,025
13A        Number of inquiries involving complex issues referred for further action                    199            242             441
13B        Total dollar amount referred for further action                                      $1,567,066       $776,233      $2,343,299
14         Number of complex issues resolved                                                         1,414          1,293           2,707
15         Number of complex issues pending further action                                           1,736          1,737           1,737
16         Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                $53,038        $19,968         $73,006
17A        Actual Medicare funds recovered attributable to the projects                             $6,501        $14,567         $21,068
17B        Actual Medicaid funds recovered attributable to the projects                                 $0             $0              $0
17C        Actual savings to beneficiaries attributable to the projects                            $27,232         $7,316         $34,548
           Other savings attributable to the projects (e.g., Supplemental Insurance, Social
17D        Security)                                                                               $6,877          $3,243         $10,120
17A –17D   Total savings attributable to the projects                                             $40,610         $25,126         $65,735

                                                                                                             9
   Δ       A P P E N D I X               ~     C



                      Projects’ Results for Each Performance Measure for 2008
The following tables provide the results for each performance measure for each of the 57 Senior Medicare Patrol Projects operating
in 2008. Each table provides the performance measure results for the two 6-month reporting periods.

Totals may not add up because of rounding.

Two projects, the District of Columbia Friendship House Association and the Georgia Department of Human Resources, closed in
2008.

For performance measure #1, “Total number of active volunteers,” many of the volunteers are the same in both of the two 6-month
periods and therefore the numbers do not sum to the total for the year.

For performance measure #15, “Number of complex issues pending further action,” many of the complex issues are the same in both
of the two 6-month periods and therefore the numbers do not sum to the total for the year.




                                                                                                       10
A P P E N D       I X         ~   C




                                      

                                          PERFORMANCE MEASURE 1: Total Number of Active Volunteers
                                      Jan–June    July–Dec   Total for 2008                    Jan–June   July–Dec   Total for 2008
Alabama                                     25          21               31   Montana                47         52               52
Alaska                                      28          19               33   Nebraska               74         72              114
Arizona                                     15          14               25   Nevada                  2          0                2
Arkansas                                    69          57               99   New Hampshire           1         30               30
California                                 130         161              242   New Jersey              8          4               10
Colorado                                    62           3               62   New Mexico             23         31               32
Connecticut                                 36          31               67   New York              384        415              420
Delaware                                    19          21               23   North Carolina          4          4                4
District of Columbia – AARP                 27          46               55   North Dakota           16         15               28
District of Columbia – FH                    4           0                4   Ohio                   23         34               52
Florida                                    157         111              234   Oklahoma               13         18               23
Georgia – AAA                               24           3               24   Oregon                103        115              139
Georgia – GeorgiaCares                      91          57              115   Pennsylvania           43         33               49
Guam                                        16           9               18   Puerto Rico            12         12               13
Hawaii                                      16          30               36   Rhode Island          138         12              139
Idaho                                       99         123              172   South Carolina         45          0               45
Illinois                                    34          15               40   South Dakota           29         94              103
Indiana                                     66         306              337   Tennessee              13         35               40
Iowa                                        56          42               70   Texas – BBBEF           3          8               10
Kansas                                      56          63              105   Texas – NHCOA         166        148              200
Kentucky                                    67          91              126   Utah                  122        116              152
Louisiana                                   10           9               13   Vermont                29         21               34
Maine                                       61          78               98   Virginia               58         81               82
Maryland                                   105         123              133   Virgin Islands         44         23               48
Massachusetts                               13          25               26   Washington             57         72               72
Michigan                                   154         301              320   West Virginia          40         68               68
Minnesota                                   42          49               78   Wisconsin              35         34               47
Mississippi                                 30          25               45   Wyoming                10          2               12
Missouri                                    24          30               34




                                                                                                   11
A P P E N D       I X         ~   C




                                      

                                      PERFORMANCE MEASURE 2: Total Number of Volunteer Training Hours
                                      Jan–June    July–Dec    Total for 2008                    Jan–June    July–Dec   Total for 2008
Alabama                                      80          67              147   Montana                188        130              318
Alaska                                       74         154              228   Nebraska             1,855        315            2,170
Arizona                                       0           0                0   Nevada                   1          0                1
Arkansas                                    122          70              192   New Hampshire            0        200              200
California                                  258         180              438   New Jersey               0          4                4
Colorado                                    959           3              962   New Mexico               0          0                0
Connecticut                                 548         616            1,164   New York             1,071        208            1,279
Delaware                                    173       1,078            1,251   North Carolina          13         46               59
District of Columbia – AARP                 158         219              377   North Dakota            16         28               44
District of Columbia – FH                     0           0                0   Ohio                    72        195              267
Florida                                     264         177              441   Oklahoma                 0         12               12
Georgia – AAA                               250          10              260   Oregon                   1          0                1
Georgia – GeorgiaCares                      163         227              390   Pennsylvania            47          0               47
Guam                                        384         183              567   Puerto Rico            136         80              216
Hawaii                                       31          52               83   Rhode Island         1,297         11            1,308
Idaho                                       807         787            1,594   South Carolina         432          0              432
Illinois                                     48           4               52   South Dakota             0        533              533
Indiana                                      62         665              727   Tennessee                9        311              320
Iowa                                         25         198              223   Texas – BBBEF            0          4                4
Kansas                                      169         170              339   Texas – NHCOA        1,987        603            2,590
Kentucky                                     83         575              658   Utah                   127        219              346
Louisiana                                    30          93              123   Vermont                265        101              366
Maine                                     2,421         727            3,148   Virginia               155          0              155
Maryland                                  2,338       2,334            4,672   Virgin Islands         308         88              396
Massachusetts                             3,920         120            4,040   Washington           1,026         67            1,093
Michigan                                  1,070       5,647            6,717   West Virginia           76         85              161
Minnesota                                   216         378              594   Wisconsin               17         99              116
Mississippi                                 117         358              475   Wyoming                160         16              176
Missouri                                      0           0                0




                                                                                                    12
A P P E N D       I X         ~   C




                                      

                                       PERFORMANCE MEASURE 3: Total Number of Volunteer Work Hours
                                      Jan–June    July–Dec    Total for 2008                    Jan–June    July–Dec    Total for 2008
Alabama                                     117       2,993            3,110   Montana                300         181              481
Alaska                                      633           0              633   Nebraska               528           0              528
Arizona                                   1,518       4,516            6,034   Nevada                   3           0                3
Arkansas                                    574       1,305            1,879   New Hampshire            5         117              122
California                                1,105       1,349            2,454   New Jersey              58          27               85
Colorado                                    492           3              495   New Mexico               0           0                0
Connecticut                               1,016           6            1,022   New York               412       1,668            2,080
Delaware                                    569       1,386            1,955   North Carolina         215         171              386
District of Columbia – AARP                 186         136              322   North Dakota            64          87              151
District of Columbia – FH                    22           0               22   Ohio                    92         140              232
Florida                                     348         586              934   Oklahoma               313         661              974
Georgia – AAA                               164           0              164   Oregon                 704         925            1,629
Georgia – GeorgiaCares                    1,042       2,183            3,225   Pennsylvania           536         467            1,003
Guam                                        587         657            1,244   Puerto Rico             72         288              360
Hawaii                                      162         180              342   Rhode Island         1,712         300            2,012
Idaho                                     1,051       3,557            4,608   South Carolina         841           0              841
Illinois                                    518          75              593   South Dakota           101          83              184
Indiana                                     407         618            1,025   Tennessee              118         156              274
Iowa                                      1,535       1,030            2,565   Texas – BBBEF           16          63               79
Kansas                                      141         205              346   Texas – NHCOA       20,832       7,030           27,862
Kentucky                                  1,787         961            2,748   Utah                 4,084       3,129            7,213
Louisiana                                   389         393              782   Vermont                282         390              672
Maine                                     1,004       1,497            2,501   Virginia                 0       1,880            1,880
Maryland                                  2,632       4,750            7,382   Virgin Islands         840         240            1,080
Massachusetts                             1,800       3,120            4,920   Washington           4,751         753            5,504
Michigan                                      8           0                8   West Virginia          642         996            1,638
Minnesota                                   227         168              395   Wisconsin              224         250              474
Mississippi                               1,084       1,006            2,090   Wyoming                  0          10               10
Missouri                                    467         810            1,277




                                                                                                    13
A P P E N D       I X         ~   C




                                      

                                          PERFORMANCE MEASURE 4: Number of Media Outreach Events
                                      Jan–June    July–Dec    Total for 2008                    Jan–June    July–Dec    Total for 2008
Alabama                                      88         127              215   Montana             13,099         123           13,222
Alaska                                       31           2               33   Nebraska                49           2               51
Arizona                                       0           0                0   Nevada               1,733           3            1,736
Arkansas                                     30         360              390   New Hampshire        2,120       1,306            3,426
California                                   57         259              316   New Jersey           1,022         234            1,256
Colorado                                     13          37               50   New Mexico               0           0                0
Connecticut                                  21           9               30   New York                36          50               86
Delaware                                      5           0                5   North Carolina      56,275         102           56,377
District of Columbia – AARP                   3         139              142   North Dakota             6           3                9
District of Columbia – FH                     0           0                0   Ohio                    23          22               45
Florida                                      34          55               89   Oklahoma                 7         422              429
Georgia – AAA                                10           0               10   Oregon                  44          28               72
Georgia – GeorgiaCares                       84       3,682            3,766   Pennsylvania             7           2                9
Guam                                     25,916      18,537           44,453   Puerto Rico              1           1                2
Hawaii                                        0           0                0   Rhode Island             7           1                8
Idaho                                         4           5                9   South Carolina          13           0               13
Illinois                                     35          33               68   South Dakota             0           2                2
Indiana                                   1,090       1,987            3,077   Tennessee                9          55               64
Iowa                                        213          38              251   Texas – BBBEF            1           9               10
Kansas                                        0          18               18   Texas – NHCOA           34          22               56
Kentucky                                     88    114,133           114,221   Utah                53,656    122,920           176,576
Louisiana                                   255          91              346   Vermont                 19          34               53
Maine                                     7,022       1,502            8,524   Virginia            30,704      27,006           57,710
Maryland                                     60          59              119   Virgin Islands           0         139              139
Massachusetts                            11,000       2,116           13,116   Washington             245          32              277
Michigan                                     16         134              150   West Virginia          177         359              536
Minnesota                                     8           0                8   Wisconsin            3,774       3,616            7,390
Mississippi                                   0    276,501           276,501   Wyoming                  0           2                2
Missouri                                      1           4                5




                                                                                                    14
A P P E N D       I X         ~   C




                                      

                      PERFORMANCE MEASURE 5: Number of Community Outreach Education Events Conducted
                                      Jan–June   July–Dec   Total for 2008                    Jan–June   July–Dec   Total for 2008
Alabama                                    194        131              325   Montana                18         14               32
Alaska                                       3          6                9   Nebraska               79         99              178
Arizona                                     62         26               88   Nevada                 14          9               23
Arkansas                                    16         24               40   New Hampshire          28         25               53
California                                  17         61               78   New Jersey             28         13               41
Colorado                                    10          7               17   New Mexico            168        160              328
Connecticut                                 36         29               65   New York               38        127              165
Delaware                                    39         29               68   North Carolina         82         23              105
District of Columbia – AARP                 11         20               31   North Dakota           13         18               31
District of Columbia – FH                    2          0                2   Ohio                   17         13               30
Florida                                     83         89              172   Oklahoma               60         31               91
Georgia – AAA                                6          0                6   Oregon                  9         78               87
Georgia – GeorgiaCares                     242         73              315   Pennsylvania           29         51               80
Guam                                        13         12               25   Puerto Rico            72         94              166
Hawaii                                       8         16               24   Rhode Island          149        127              276
Idaho                                       28         29               57   South Carolina         76        112              188
Illinois                                    86         96              182   South Dakota            2          4                6
Indiana                                     69         81              150   Tennessee             140         61              201
Iowa                                       284        149              433   Texas – BBBEF           5         22               27
Kansas                                      19          4               23   Texas – NHCOA          76         21               97
Kentucky                                    63         52              115   Utah                   36         30               66
Louisiana                                   38         13               51   Vermont                 1          0                1
Maine                                       48         36               84   Virginia               97         81              178
Maryland                                    56         61              117   Virgin Islands         17         11               28
Massachusetts                                6         10               16   Washington             20         82              102
Michigan                                     9         22               31   West Virginia          34         15               49
Minnesota                                   18         19               37   Wisconsin              61         42              103
Mississippi                                 66         65              131   Wyoming                15         30               45
Missouri                                   153        120              273




                                                                                                  15
A P P E N D       I X         ~   C




                                      

         PERFORMANCE MEASURE 6: Estimated Number of People Reached by Community Outreach Education Events
                                  Jan–June    July–Dec    Total for 2008                    Jan–June    July–Dec    Total for 2008
Alabama                              18,033      11,054           29,087   Montana                919         698            1,617
Alaska                                  120      94,451           94,571   Nebraska             6,531      10,655           17,186
Arizona                               1,471       2,035            3,506   Nevada               1,410       1,345            2,755
Arkansas                              2,321       3,705            6,026   New Hampshire        1,634       6,173            7,807
California                            1,097      10,705           11,802   New Jersey           3,571         934            4,505
Colorado                                514         370              884   New Mexico           5,447      15,039           20,486
Connecticut                           6,366    560,293           566,659   New York            11,744    229,339           241,083
Delaware                              1,976       3,008            4,984   North Carolina      16,650       3,738           20,388
District of Columbia – AARP           8,695       6,501           15,196   North Dakota         1,403       2,453            3,856
District of Columbia – FH                20           0               20   Ohio                 1,490       1,156            2,646
Florida                               9,627       8,286           17,913   Oklahoma             3,903       5,115            9,018
Georgia – AAA                           274           0              274   Oregon               3,754       4,765            8,519
Georgia – GeorgiaCares               25,758      12,744           38,502   Pennsylvania         2,268       3,506            5,774
Guam                                    917       1,488            2,405   Puerto Rico          5,399      11,431           16,830
Hawaii                                1,715       2,660            4,375   Rhode Island        21,237      18,363           39,600
Idaho                                 2,756       1,929            4,685   South Carolina      15,413       4,560           19,973
Illinois                              5,581      11,459           17,040   South Dakota           165         271              436
Indiana                              13,790      15,746           29,536   Tennessee           13,359       4,296           17,655
Iowa                                 16,447       2,145           18,592   Texas – BBBEF          515       5,925            6,440
Kansas                                1,249       1,114            2,363   Texas – NHCOA        9,949       6,764           16,713
Kentucky                              3,431       3,574            7,005   Utah                 5,322       2,363            7,685
Louisiana                               588         128              716   Vermont                450           0              450
Maine                                 2,959       1,816            4,775   Virginia            13,104       7,189           20,293
Maryland                              4,473       9,167           13,640   Virgin Islands       1,613         768            2,381
Massachusetts                           886         547            1,433   Washington             836       6,794            7,630
Michigan                                595      51,979           52,574   West Virginia       16,436      15,112           31,548
Minnesota                             1,727       4,740            6,467   Wisconsin            3,665       4,708            8,373
Mississippi                           2,339       6,011            8,350   Wyoming                569       1,499            2,068
Missouri                              4,860       5,177           10,037




                                                                                                 16
A P P E N D       I X         ~   C




                                      

                          PERFORMANCE MEASURE 7: Number of Group Education Sessions for Beneficiaries
                                      Jan–June   July–Dec   Total for 2008                    Jan–June   July–Dec   Total for 2008
Alabama                                    180        149              329   Montana                82         81              163
Alaska                                       3          3                6   Nebraska               24         46               70
Arizona                                     18         74               92   Nevada                 21          3               24
Arkansas                                    21         42               63   New Hampshire          75         30              105
California                                 329        380              709   New Jersey             58         64              122
Colorado                                    34         36               70   New Mexico              0          0                0
Connecticut                                 30         25               55   New York              292        333              625
Delaware                                    20         18               38   North Carolina         90         33              123
District of Columbia – AARP                 17         23               40   North Dakota           42         39               81
District of Columbia – FH                    1          0                1   Ohio                   29         37               66
Florida                                    103        140              243   Oklahoma               59         90              149
Georgia – AAA                              104          0              104   Oregon                  8         55               63
Georgia – GeorgiaCares                     226        201              427   Pennsylvania           75         50              125
Guam                                         0         54               54   Puerto Rico            14         20               34
Hawaii                                      11         23               34   Rhode Island           37          9               46
Idaho                                       39         69              108   South Carolina         38         13               51
Illinois                                   126        126              252   South Dakota            0          9                9
Indiana                                     75        124              199   Tennessee              19         55               74
Iowa                                       267        190              457   Texas – BBBEF          38         38               76
Kansas                                      19         15               34   Texas – NHCOA         131         46              177
Kentucky                                    31         37               68   Utah                   49         41               90
Louisiana                                   18          3               21   Vermont                19         21               40
Maine                                       46         27               73   Virginia               65         94              159
Maryland                                    72         80              152   Virgin Islands          0         40               40
Massachusetts                                9         12               21   Washington             23         13               36
Michigan                                    91         15              106   West Virginia          26         20               46
Minnesota                                  184        130              314   Wisconsin              53         40               93
Mississippi                                 32         16               48   Wyoming                 5          2                7
Missouri                                    21         36               57




                                                                                                  17
A P P E N D       I X         ~   C




                                      

                   PERFORMANCE MEASURE 8A: Number of Beneficiaries Who Attended Group Education Sessions
                                      Jan–June    July–Dec    Total for 2008                    Jan–June    July–Dec    Total for 2008
Alabama                                   5,983       4,249           10,232   Montana              2,387       2,377            4,764
Alaska                                      118         161              279   Nebraska               756       2,203            2,959
Arizona                                     651       4,862            5,513   Nevada                 872         180            1,052
Arkansas                                    451       2,114            2,565   New Hampshire        1,922         802            2,724
California                                8,284      11,628           19,912   New Jersey           1,875       1,931            3,806
Colorado                                    587         855            1,442   New Mexico               0           0                0
Connecticut                                 897         895            1,792   New York            12,242      11,896           24,138
Delaware                                    459         327              786   North Carolina       6,308       2,061            8,369
District of Columbia – AARP                 332         366              698   North Dakota           930         989            1,919
District of Columbia – FH                     0           0                0   Ohio                   692         791            1,483
Florida                                   4,523       4,419            8,942   Oklahoma            17,493       2,739           20,232
Georgia – AAA                             2,450           0            2,450   Oregon                 259       1,566            1,825
Georgia – GeorgiaCares                    7,528       7,103           14,631   Pennsylvania         1,974       1,160            3,134
Guam                                          0         991              991   Puerto Rico            565         481            1,046
Hawaii                                      361         732            1,093   Rhode Island         1,817         608            2,425
Idaho                                     1,413       2,242            3,655   South Carolina       1,007         640            1,647
Illinois                                  3,196       3,555            6,751   South Dakota             0         340              340
Indiana                                   1,742       2,929            4,671   Tennessee              263       1,510            1,773
Iowa                                      6,013       3,903            9,916   Texas – BBBEF        1,569         900            2,469
Kansas                                    2,522         556            3,078   Texas – NHCOA        3,833       1,652            5,485
Kentucky                                    792       7,059            7,851   Utah                 3,091       5,036            8,127
Louisiana                                   270          37              307   Vermont                358         631              989
Maine                                     1,002         464            1,466   Virginia             1,891       2,181            4,072
Maryland                                  1,518       2,632            4,150   Virgin Islands           0         292              292
Massachusetts                               266         439              705   Washington             824         200            1,024
Michigan                                 58,457      18,287           76,744   West Virginia        1,598       1,096            2,694
Minnesota                                 1,918       1,325            3,243   Wisconsin            1,668       1,056            2,724
Mississippi                                 755         624            1,379   Wyoming                247          50              297
Missouri                                    814         859            1,673




                                                                                                    18
A P P E N D       I X         ~   C




                                      

               PERFORMANCE MEASURE 8B: Increase in Number of Beneficiaries Who Understand How Reading Their
                                       Medicare Summary Notice Can Help Identify Billing Fraud or Errors
                                      Jan–June   July–Dec   Total for 2008                    Jan–June      July–Dec   Total for 2008
Alabama                                    221        177              398   Montana                101           30              131
Alaska                                      17          0               17   Nebraska               161          102              263
Arizona                                     19         55               74   Nevada                  18            0               18
Arkansas                                   146        281              427   New Hampshire           84           41              125
California                                  35         29               64   New Jersey             349          381              730
Colorado                                     0          0                0   New Mexico               0            0                0
Connecticut                                233        262              495   New York               115           47              162
Delaware                                    56        147              203   North Carolina         513            0              513
District of Columbia – AARP                 70        103              173   North Dakota           177          108              285
District of Columbia – FH                    4          0                4   Ohio                   123           85              208
Florida                                     12        128              140   Oklahoma                 0          136              136
Georgia – AAA                              217          0              217   Oregon                  63           19               82
Georgia – GeorgiaCares                      24        480              504   Pennsylvania            43           66              109
Guam                                         0        273              273   Puerto Rico              0           62               62
Hawaii                                       3          0                3   Rhode Island           888            0              888
Idaho                                      127        656              783   South Carolina           0           40               40
Illinois                                    29         31               60   South Dakota             0          168              168
Indiana                                    104         45              149   Tennessee               42            3               45
Iowa                                       209         95              304   Texas – BBBEF           45           70              115
Kansas                                     132         38              170   Texas – NHCOA        2,128          897            3,025
Kentucky                                   338        302              640   Utah                    56          120              176
Louisiana                                    0          7                7   Vermont                 10           54               64
Maine                                      123          0              123   Virginia                 3           24               27
Maryland                                   220        207              427   Virgin Islands           0          161              161
Massachusetts                              311        401              712   Washington               2           11               13
Michigan                                     0         33               33   West Virginia           87          122              209
Minnesota                                   40         25               65   Wisconsin               49          139              188
Mississippi                                  0         17               17   Wyoming                  0           16               16
Missouri                                     9          0                9




                                                                                                   19
                                                                                                        

A P P E N D       I X         ~   C




                                      

            PERFORMANCE MEASURE 8C: Increase in Number of Beneficiaries Who Understand Why It Is Important To
                                    Seek Assistance With Billing Questions
                                      Jan–June   July–Dec   Total for 2008                    Jan–June     July–Dec   Total for 2008
Alabama                                    104        150              254   Montana                176          66              242
Alaska                                      17          0               17   Nebraska               135         185              320
Arizona                                     30         63               93   Nevada                  23           0               23
Arkansas                                   177        334              511   New Hampshire          162          89              251
California                                  30         49               79   New Jersey             587         568            1,155
Colorado                                     0          0                0   New Mexico               0           0                0
Connecticut                                329        336              665   New York               626          29              655
Delaware                                   132        161              293   North Carolina         423         125              548
District of Columbia – AARP                128        159              287   North Dakota           273         104              377
District of Columbia – FH                   10          0               10   Ohio                   159          90              249
Florida                                     29        167              196   Oklahoma                 0         219              219
Georgia – AAA                              272          0              272   Oregon                  52          16               68
Georgia – GeorgiaCares                      28        595              623   Pennsylvania            83          93              176
Guam                                         0        239              239   Puerto Rico              0          90               90
Hawaii                                       3          0                3   Rhode Island           805           0              805
Idaho                                      213        894            1,107   South Carolina           0          24               24
Illinois                                    29         40               69   South Dakota             0         161              161
Indiana                                    177         59              236   Tennessee               27           3               30
Iowa                                       458        263              721   Texas – BBBEF          224          82              306
Kansas                                     107         27              134   Texas – NHCOA        2,186         841            3,027
Kentucky                                   216        360              576   Utah                   153         209              362
Louisiana                                   15         12               27   Vermont                 21          72               93
Maine                                      162          0              162   Virginia                 3          16               19
Maryland                                   313        212              525   Virgin Islands           0         172              172
Massachusetts                              208        402              610   Washington               2          15               17
Michigan                                     0         27               27   West Virginia          209         180              389
Minnesota                                   53         23               76   Wisconsin               58         105              163
Mississippi                                  0         15               15   Wyoming                  0          16               16
Missouri                                    24          0               24




                                                                                                  20
                                                                                                       

A P P E N D       I X         ~   C




                                      

                PERFORMANCE MEASURE 8D: Increase in Number of Beneficiaries Who Know Why It Is Important To
                                         Protect Their Medicare and Social Security Numbers
                                      Jan–June   July–Dec   Total for 2008                    Jan–June     July–Dec    Total for 2008
Alabama                                    104        401              505   Montana                 71           34              105
Alaska                                      16          0               16   Nebraska               105          206              311
Arizona                                     15         35               50   Nevada                   8            0                8
Arkansas                                    81        339              420   New Hampshire           68           54              122
California                                  27         43               70   New Jersey             261          224              485
Colorado                                     0          0                0   New Mexico               0            0                0
Connecticut                                166        122              288   New York               111            7              118
Delaware                                    46        100              146   North Carolina         918           75              993
District of Columbia – AARP                 14         44               58   North Dakota            62           50              112
District of Columbia – FH                    2          0                2   Ohio                    89           30              119
Florida                                      4        111              115   Oklahoma                 0          237              237
Georgia – AAA                              191          0              191   Oregon                  71           13               84
Georgia – GeorgiaCares                      14        495              509   Pennsylvania            30           34               64
Guam                                         0        256              256   Puerto Rico              0           60               60
Hawaii                                       2          0                2   Rhode Island           812            0              812
Idaho                                      163        354              517   South Carolina           0           86               86
Illinois                                    21         17               38   South Dakota             0          175              175
Indiana                                     99         31              130   Tennessee               19            0               19
Iowa                                       201         86              287   Texas – BBBEF           23           39               62
Kansas                                     135         35              170   Texas – NHCOA        1,646        1,008            2,654
Kentucky                                   238         56              294   Utah                   143           25              168
Louisiana                                    0          1                1   Vermont                  6           36               42
Maine                                       90          0               90   Virginia                 3            6                9
Maryland                                   357        221              578   Virgin Islands           0          113              113
Massachusetts                              177        338              515   Washington               4            0                4
Michigan                                     0         26               26   West Virginia           57           47              104
Minnesota                                   14         14               28   Wisconsin               28           34               62
Mississippi                                  0          3                3   Wyoming                  0           12               12
Missouri                                     6          0                6




                                                                                                  21
                                                                                                       

A P P E N D       I X         ~   C




                                      

        PERFORMANCE MEASURE 9: Number of One-on-One Counseling Sessions Held With or on Behalf of a Beneficiary
                                      Jan–June   July–Dec   Total for 2008                    Jan–June    July–Dec    Total for 2008
Alabama                                     49        165              214   Montana                272         183              455
Alaska                                       1          0                1   Nebraska                 2          68               70
Arizona                                      0          2                2   Nevada                  15           6               21
Arkansas                                   327        378              705   New Hampshire            0           2                2
California                                   0          1                1   New Jersey              50          66              116
Colorado                                     0          0                0   New Mexico               0           0                0
Connecticut                                  0          3                3   New York                42       1,775            1,817
Delaware                                   113        178              291   North Carolina           1           0                1
District of Columbia – AARP                  2          7                9   North Dakota             9          17               26
District of Columbia – FH                    0          0                0   Ohio                    11           0               11
Florida                                      9          1               10   Oklahoma                 2          32               34
Georgia – AAA                               90          0               90   Oregon                 487       2,006            2,493
Georgia – GeorgiaCares                       4         39               43   Pennsylvania            89         453              542
Guam                                        23         59               82   Puerto Rico            397         195              592
Hawaii                                       0          0                0   Rhode Island           446         378              824
Idaho                                        2        171              173   South Carolina           0          19               19
Illinois                                    70        115              185   South Dakota            11         163              174
Indiana                                     12        186              198   Tennessee               79          74              153
Iowa                                        48         22               70   Texas – BBBEF            0           1                1
Kansas                                       5          0                5   Texas – NHCOA        6,234       4,321           10,555
Kentucky                                   554        534            1,088   Utah                   115         655              770
Louisiana                                   19         26               45   Vermont                  0           0                0
Maine                                      138        874            1,012   Virginia                 1           0                1
Maryland                                    83        185              268   Virgin Islands           0          37               37
Massachusetts                               29         85              114   Washington               0          77               77
Michigan                                     0          0                0   West Virginia          125         407              532
Minnesota                                  125         88              213   Wisconsin               31           4               35
Mississippi                                  3          0                3   Wyoming                  0           4                4
Missouri                                   316          2              318




                                                                                                  22
A P P E N D       I X         ~   C




                                      

                                  PERFORMANCE MEASURE 10: Total Number of Simple Inquiries Received
                                      Jan–June   July–Dec    Total for 2008                    Jan–June    July–Dec    Total for 2008
Alabama                                    198         226              424   Montana                  4           1                5
Alaska                                      11           5               16   Nebraska             1,538       2,039            3,577
Arizona                                    360         175              535   Nevada                  74          23               97
Arkansas                                   203         211              414   New Hampshire            1           3                4
California                                  27          20               47   New Jersey             126          95              221
Colorado                                    14          52               66   New Mexico               0           1                1
Connecticut                                 28         112              140   New York                44          42               86
Delaware                                    48          59              107   North Carolina           0           0                0
District of Columbia – AARP                 25          21               46   North Dakota           105          33              138
District of Columbia – FH                    0           0                0   Ohio                    59          34               93
Florida                                     55          47              102   Oklahoma                31         116              147
Georgia – AAA                               80           0               80   Oregon                  77         710              787
Georgia – GeorgiaCares                     702       1,769            2,471   Pennsylvania             7          10               17
Guam                                       304         555              859   Puerto Rico            250         325              575
Hawaii                                      37          35               72   Rhode Island           766         994            1,760
Idaho                                      726       1,520            2,246   South Carolina         162          37              199
Illinois                                    92         112              204   South Dakota            72          83              155
Indiana                                     54          97              151   Tennessee              103         148              251
Iowa                                       122         138              260   Texas – BBBEF           68          98              166
Kansas                                      84          41              125   Texas – NHCOA       11,159       4,378           15,537
Kentucky                                   351       1,166            1,517   Utah                    65         198              263
Louisiana                                  172         331              503   Vermont                  0           1                1
Maine                                      329         176              505   Virginia                58          88              146
Maryland                                   395         635            1,030   Virgin Islands           0           6                6
Massachusetts                               66         227              293   Washington               0          63               63
Michigan                                   117           7              124   West Virginia          143         540              683
Minnesota                                  201         235              436   Wisconsin              217         239              456
Mississippi                                  2          58               60   Wyoming                 24          48               72
Missouri                                   692       1,703            2,395




                                                                                                   23
A P P E N D       I X         ~   C




                                      

                                  PERFORMANCE MEASURE 11: Total Number of Simple Inquiries Resolved
                                      Jan–June   July–Dec    Total for 2008                    Jan–June    July–Dec    Total for 2008
Alabama                                    195         223              418   Montana                  4           1                5
Alaska                                       7           5               12   Nebraska             1,530       2,038            3,568
Arizona                                    360         175              535   Nevada                  61          23               84
Arkansas                                   197         210              407   New Hampshire            1           3                4
California                                  24          19               43   New Jersey             126          94              220
Colorado                                    14          52               66   New Mexico               0           1                1
Connecticut                                 28         112              140   New York                44          39               83
Delaware                                    41          39               80   North Carolina           0           0                0
District of Columbia – AARP                 25          21               46   North Dakota           105          33              138
District of Columbia – FH                    0           0                0   Ohio                    58          32               90
Florida                                     54          47              101   Oklahoma                31         115              146
Georgia – AAA                               80           0               80   Oregon                  76         707              783
Georgia – GeorgiaCares                     698       1,762            2,460   Pennsylvania             7          10               17
Guam                                       304         555              859   Puerto Rico            221         324              545
Hawaii                                      37          35               72   Rhode Island           735         941            1,676
Idaho                                      726       1,520            2,246   South Carolina         162          37              199
Illinois                                    91         112              203   South Dakota            72          83              155
Indiana                                     54          96              150   Tennessee               98         148              246
Iowa                                       122         138              260   Texas – BBBEF           68          98              166
Kansas                                      68          40              108   Texas – NHCOA       11,153       4,377           15,530
Kentucky                                   338       1,140            1,478   Utah                    64         196              260
Louisiana                                  172         331              503   Vermont                  0           1                1
Maine                                      329         167              496   Virginia                53          83              136
Maryland                                   387         634            1,021   Virgin Islands           0           6                6
Massachusetts                               66         227              293   Washington               0          63               63
Michigan                                   117           7              124   West Virginia          143         538              681
Minnesota                                  201         235              436   Wisconsin              194         221              415
Mississippi                                  2          58               60   Wyoming                 24          48               72
Missouri                                   691       1,702            2,393




                                                                                                   24
A P P E N D       I X         ~   C




                                      

                         PERFORMANCE MEASURE 12: Number of Inquiries Involving Complex Issues Received
                                      Jan–June   July–Dec   Total for 2008                    Jan–June   July–Dec   Total for 2008
Alabama                                     31          4               35   Montana                 6          9               15
Alaska                                       0          3                3   Nebraska               12         18               30
Arizona                                      0          9                9   Nevada                 20          3               23
Arkansas                                    39         19               58   New Hampshire           3          8               11
California                                  47         52               99   New Jersey             12         12               24
Colorado                                    22          7               29   New Mexico             53         43               96
Connecticut                                 15          7               22   New York               29         17               46
Delaware                                    11          7               18   North Carolina          0          0                0
District of Columbia – AARP                  6          3                9   North Dakota            2          7                9
District of Columbia – FH                    0          0                0   Ohio                    7          8               15
Florida                                     52         30               82   Oklahoma                3          3                6
Georgia – AAA                               59          0               59   Oregon - SMP            0         10               10
Georgia – GeorgiaCares                       0         56               56   Pennsylvania            3         14               17
Guam                                         1          3                4   Puerto Rico             1          0                1
Hawaii                                       2          5                7   Rhode Island           38          5               43
Idaho                                       17          1               18   South Carolina          7          3               10
Illinois                                    17         17               34   South Dakota           22          0               22
Indiana                                      8          8               16   Tennessee              19         40               59
Iowa                                         9          9               18   Texas – BBBEF          14         44               58
Kansas                                      25         15               40   Texas – NHCOA         158        240              398
Kentucky                                     3         72               75   Utah                   23         56               79
Louisiana                                    0          5                5   Vermont                12          2               14
Maine                                       12          5               17   Virginia                0          1                1
Maryland                                    40         46               86   Virgin Islands          0          0                0
Massachusetts                               12         42               54   Washington            260         24              284
Michigan                                    54          8               62   West Virginia          34         51               85
Minnesota                                  745        538            1,283   Wisconsin              17         22               39
Mississippi                                234        145              379   Wyoming                 0          1                1
Missouri                                    30         22               52




                                                                                                  25
A P P E N D       I X         ~   C




                                      

             PERFORMANCE MEASURE 13A: Number of Inquiries Involving Complex Issues Referred for Further Action
                                      Jan–June   July–Dec   Total for 2008                    Jan–June   July–Dec   Total for 2008
Alabama                                      1          0                1   Montana                 2          3                5
Alaska                                       0          0                0   Nebraska                0          2                2
Arizona                                      0          1                1   Nevada                  4          1                5
Arkansas                                     2          2                4   New Hampshire           0          2                2
California                                  44         42               86   New Jersey              5          3                8
Colorado                                    14         13               27   New Mexico              6          4               10
Connecticut                                  0          2                2   New York                0          1                1
Delaware                                     0          0                0   North Carolina          0          0                0
District of Columbia – AARP                  4          1                5   North Dakota            0          0                0
District of Columbia – FH                    0          0                0   Ohio                    2          3                5
Florida                                     14         17               31   Oklahoma                0          0                0
Georgia – AAA                                7          2                9   Oregon                  0          2                2
Georgia – GeorgiaCares                       1         16               17   Pennsylvania            1          0                1
Guam                                         0          1                1   Puerto Rico             1          0                1
Hawaii                                       0          8                8   Rhode Island            2          0                2
Idaho                                        0          0                0   South Carolina          1          2                3
Illinois                                     7          3               10   South Dakota            4          0                4
Indiana                                      3          3                6   Tennessee               1         11               12
Iowa                                         5          2                7   Texas – BBBEF           1          1                2
Kansas                                      12          3               15   Texas – NHCOA           6          0                6
Kentucky                                     1          1                2   Utah                    4          0                4
Louisiana                                    0          0                0   Vermont                 3          1                4
Maine                                        2          1                3   Virginia                0          1                1
Maryland                                     2          1                3   Virgin Islands          0          0                0
Massachusetts                                0          4                4   Washington              0          0                0
Michigan                                     8          1                9   West Virginia           2         29               31
Minnesota                                    2         45               47   Wisconsin               8          2               10
Mississippi                                 11          1               12   Wyoming                 0          0                0
Missouri                                     6          4               10




                                                                                                  26
A P P E N D       I X         ~     C




                                        

                                  PERFORMANCE MEASURE 13B: Total Dollar Amount Referred for Further Action
                                        Jan–June    July–Dec    Total for 2008                    Jan–June    July–Dec    Total for 2008
Alabama                                   $13,523          $0          $13,523   Montana             $3,583    $12,426           $16,009
Alaska                                         $0          $0               $0   Nebraska           $53,740    $18,288           $72,028
Arizona                                        $0          $0               $0   Nevada             $18,844      $1,000          $19,844
Arkansas                                     $119        $590             $709   New Hampshire        $305       $9,546           $9,851
California                               $829,756   $107,496         $937,252    New Jersey          $3,694    $87,026           $90,720
Colorado                                 $128,827    $42,440         $171,268    New Mexico         $41,366   $183,677         $225,043
Connecticut                                  $240      $1,692           $1,932   New York           $59,764    $47,583         $107,347
Delaware                                   $1,842       $465            $2,307   North Carolina          $0          $0               $0
District of Columbia – AARP                  $600          $0             $600   North Dakota            $0          $0               $0
District of Columbia – FH                      $0          $0               $0   Ohio                $3,615      $2,109           $5,724
Florida                                   $39,075    $35,138           $74,213   Oklahoma                $0          $0               $0
Georgia – AAA                             $30,347          $0          $30,347   Oregon                  $0        $125             $125
Georgia – GeorgiaCares                         $0    $21,850           $21,850   Pennsylvania            $0        $289             $289
Guam                                           $0      $1,073           $1,073   Puerto Rico        $21,659          $0          $21,659
Hawaii                                         $0       $989              $989   Rhode Island            $0          $0               $0
Idaho                                      $1,583    $10,459           $12,042   South Carolina     $25,002      $1,615          $26,617
Illinois                                   $1,816    $11,697           $13,513   South Dakota         $149           $0             $149
Indiana                                    $4,658       $433            $5,092   Tennessee            $359           $0             $359
Iowa                                        $354          $81             $435   Texas – BBBEF       $8,463    $25,214           $33,677
Kansas                                    $24,086    $39,212           $63,299   Texas – NHCOA     $171,267    $22,005         $193,272
Kentucky                                       $0      $1,348           $1,348   Utah                $8,306          $0           $8,306
Louisiana                                      $0          $0               $0   Vermont               $128          $0             $128
Maine                                          $0    $25,710           $25,710   Virginia                $0        $359             $359
Maryland                                   $9,024      $5,180          $14,204   Virgin Islands          $0          $0               $0
Massachusetts                                 $74       $619              $693   Washington              $0    $10,960           $10,960
Michigan                                  $17,117      $1,560          $18,677   West Virginia       $1,665    $16,853           $18,518
Minnesota                                 $37,101    $28,284           $65,385   Wisconsin               $0          $0               $0
Mississippi                                  $250          $0             $250   Wyoming                 $0          $0               $0
Missouri                                   $4,766        $840           $5,606




                                                                                                      27
A P P E N D       I X         ~   C




                                      

                                       PERFORMANCE MEASURE 14: Number of Complex Issues Resolved
                                      Jan–June   July–Dec   Total for 2008                    Jan–June   July–Dec   Total for 2008
Alabama                                     22          7               29   Montana                 3          6                9
Alaska                                       0          0                0   Nebraska                7         12               19
Arizona                                      6          4               10   Nevada                 11          6               17
Arkansas                                    18          4               22   New Hampshire           0          3                3
California                                  10         14               24   New Jersey              5          4                9
Colorado                                     6          6               12   New Mexico             38         43               81
Connecticut                                  3          2                5   New York               11         16               27
Delaware                                     5          5               10   North Carolina          0          0                0
District of Columbia – AARP                  4          1                5   North Dakota            2          5                7
District of Columbia – FH                    0          0                0   Ohio                    1          2                3
Florida                                     26          7               33   Oklahoma                1          2                3
Georgia – AAA                               33          6               39   Oregon                  1          1                2
Georgia – GeorgiaCares                       0         12               12   Pennsylvania            0         10               10
Guam                                         0          3                3   Puerto Rico             0          0                0
Hawaii                                       5          0                5   Rhode Island            2          1                3
Idaho                                       17          3               20   South Carolina          1          0                1
Illinois                                    10         21               31   South Dakota           19          4               23
Indiana                                      3          3                6   Tennessee               9         21               30
Iowa                                         5          5               10   Texas – BBBEF          23          3               26
Kansas                                       4          2                6   Texas – NHCOA         241        113              354
Kentucky                                     2         63               65   Utah                    3         51               54
Louisiana                                    0          0                0   Vermont                10          2               12
Maine                                        1          0                1   Virginia                0          0                0
Maryland                                    25         13               38   Virgin Islands          0          0                0
Massachusetts                                3         24               27   Washington              1         35               36
Michigan                                    52          3               55   West Virginia           2         33               35
Minnesota                                  705        545            1,250   Wisconsin              11         13               24
Mississippi                                 42        153              195   Wyoming                 0          0                0
Missouri                                     5          1                6




                                                                                                  28
A P P E N D       I X         ~      C




                                         

                                  PERFORMANCE MEASURE 15: Number of Complex Issues Pending Further Action
                                         Jan–June   July–Dec   Total for 2008                    Jan–June   July–Dec   Total for 2008
Alabama                                        22         22               22   Montana                20         20               20
Alaska                                          1          1                1   Nebraska               23         23               23
Arizona                                         4          4                4   Nevada                 18         18               18
Arkansas                                       73         73               73   New Hampshire          15         15               15
California                                    157        157              157   New Jersey             44         44               44
Colorado                                       51         51               51   New Mexico             80         80               80
Connecticut                                    15         15               15   New York               84         84               84
Delaware                                       11         11               11   North Carolina          0          0                0
District of Columbia – AARP                     2          2                2   North Dakota            0          0                0
District of Columbia – FH                       0          0                0   Ohio                   26         26               26
Florida                                       159        160              160   Oklahoma                3          3                3
Georgia – AAA                                  36         36               36   Oregon - SMP           11         11               11
Georgia – GeorgiaCares                         47         47               47   Pennsylvania            9          9                9
Guam                                            6          6                6   Puerto Rico             2          2                2
Hawaii                                          2          2                2   Rhode Island           41         41               41
Idaho                                           7          7                7   South Carolina         41         41               41
Illinois                                        6          6                6   South Dakota            0          0                0
Indiana                                        18         18               18   Tennessee              44         44               44
Iowa                                           17         17               17   Texas – BBBEF          62         62               62
Kansas                                         55         55               55   Texas – NHCOA          78         78               78
Kentucky                                        4          4                4   Utah                   37         37               37
Louisiana                                       3          3                3   Vermont                16         16               16
Maine                                          17         17               17   Virginia                8          8                8
Maryland                                       21         21               21   Virgin Islands          0          0                0
Massachusetts                                   5          5                5   Washington             24         24               24
Michigan                                       40         40               40   West Virginia          83         83               83
Minnesota                                      26         26               26   Wisconsin              20         20               20
Mississippi                                    88         88               88   Wyoming                 0          0                0
Missouri                                       54         54               54




                                                                                                     29
A P P E N D       I X         ~   C




                                      

               PERFORMANCE MEASURE 16: Cost Avoidance on Behalf of Medicare, Medicaid, Beneficiaries, or Others
                                      Jan–June    July–Dec    Total for 2008                    Jan–June    July–Dec    Total for 2008
Alabama                                      $0          $0               $0   Montana                 $0          $0               $0
Alaska                                       $0          $0               $0   Nebraska           $40,368       $193           $40,561
Arizona                                      $0          $0               $0   Nevada                  $0          $0               $0
Arkansas                                     $0          $0               $0   New Hampshire           $0          $0               $0
California                                   $0          $0               $0   New Jersey              $0          $0               $0
Colorado                                  $963           $0             $963   New Mexico          $3,372    $10,411           $13,783
Connecticut                                  $0          $0               $0   New York                $0          $0               $0
Delaware                                     $0          $0               $0   North Carolina          $0          $0               $0
District of Columbia – AARP                  $0          $0               $0   North Dakota            $0          $0               $0
District of Columbia – FH                    $0          $0               $0   Ohio                    $0          $0               $0
Florida                                     $60          $0              $60   Oklahoma                $0          $0               $0
Georgia – AAA                                $0          $0               $0   Oregon                  $0          $0               $0
Georgia – GeorgiaCares                       $0          $0               $0   Pennsylvania            $0          $0               $0
Guam                                         $0          $0               $0   Puerto Rico             $0          $0               $0
Hawaii                                       $0          $0               $0   Rhode Island            $0          $0               $0
Idaho                                    $1,369      $2,512           $3,881   South Carolina          $0          $0               $0
Illinois                                     $0        $105             $105   South Dakota            $0          $0               $0
Indiana                                      $0          $0               $0   Tennessee               $0          $0               $0
Iowa                                         $0          $0               $0   Texas – BBBEF           $0          $0               $0
Kansas                                   $2,879          $0           $2,879   Texas – NHCOA       $2,670      $1,720           $4,389
Kentucky                                     $0          $0               $0   Utah                    $0          $0               $0
Louisiana                                    $0          $0               $0   Vermont                 $0          $0               $0
Maine                                        $0      $2,175           $2,175   Virginia                $0          $0               $0
Maryland                                     $0          $0               $0   Virgin Islands          $0          $0               $0
Massachusetts                                $0          $0               $0   Washington              $0          $0               $0
Michigan                                     $0          $0               $0   West Virginia           $0          $0               $0
Minnesota                                $1,357      $2,852           $4,209   Wisconsin               $0          $0               $0
Mississippi                                  $0          $0               $0   Wyoming                 $0          $0               $0
Missouri                                     $0          $0               $0




                                                                                                    30
A P P E N D       I X         ~   C




                                      

                     PERFORMANCE MEASURE 17A: Actual Medicare Funds Recovered Attributable to the Projects
                                      Jan–June    July–Dec   Total for 2008                    Jan–June    July–Dec   Total for 2008
Alabama                                      $0         $0               $0   Montana                 $0         $0               $0
Alaska                                       $0         $0               $0   Nebraska                $0         $0               $0
Arizona                                      $0         $0               $0   Nevada                  $0         $0               $0
Arkansas                                     $0         $0               $0   New Hampshire           $0         $0               $0
California                                   $0         $0               $0   New Jersey              $0         $0               $0
Colorado                                     $0         $0               $0   New Mexico              $0    $14,567          $14,567
Connecticut                                  $0         $0               $0   New York            $2,193         $0           $2,193
Delaware                                     $0         $0               $0   North Carolina          $0         $0               $0
District of Columbia – AARP                  $0         $0               $0   North Dakota            $0         $0               $0
District of Columbia – FH                    $0         $0               $0   Ohio                    $0         $0               $0
Florida                                   $615          $0             $615   Oklahoma                $0         $0               $0
Georgia – AAA                                $0         $0               $0   Oregon                  $0         $0               $0
Georgia – GeorgiaCares                       $0         $0               $0   Pennsylvania            $0         $0               $0
Guam                                         $0         $0               $0   Puerto Rico             $0         $0               $0
Hawaii                                       $0         $0               $0   Rhode Island            $0         $0               $0
Idaho                                        $0         $0               $0   South Carolina          $0         $0               $0
Illinois                                     $0         $0               $0   South Dakota            $0         $0               $0
Indiana                                      $0         $0               $0   Tennessee               $0         $0               $0
Iowa                                         $0         $0               $0   Texas – BBBEF           $0         $0               $0
Kansas                                       $0         $0               $0   Texas – NHCOA           $0         $0               $0
Kentucky                                     $0         $0               $0   Utah                    $0         $0               $0
Louisiana                                    $0         $0               $0   Vermont                 $0         $0               $0
Maine                                        $0         $0               $0   Virginia                $0         $0               $0
Maryland                                     $0         $0               $0   Virgin Islands          $0         $0               $0
Massachusetts                                $0         $0               $0   Washington              $0         $0               $0
Michigan                                     $0         $0               $0   West Virginia           $0         $0               $0
Minnesota                                    $0         $0               $0   Wisconsin               $0         $0               $0
Mississippi                                  $0         $0               $0   Wyoming                 $0         $0               $0
Missouri                                 $3,693         $0           $3,693




                                                                                                   31
A P P E N D       I X         ~   C




                                      

                     PERFORMANCE MEASURE 17B: Actual Medicaid Funds Recovered Attributable to the Projects
                                      Jan–June   July–Dec   Total for 2008                    Jan–June   July–Dec   Total for 2008
Alabama                                     $0         $0               $0   Montana                $0         $0               $0
Alaska                                      $0         $0               $0   Nebraska               $0         $0               $0
Arizona                                     $0         $0               $0   Nevada                 $0         $0               $0
Arkansas                                    $0         $0               $0   New Hampshire          $0         $0               $0
California                                  $0         $0               $0   New Jersey             $0         $0               $0
Colorado                                    $0         $0               $0   New Mexico             $0         $0               $0
Connecticut                                 $0         $0               $0   New York               $0         $0               $0
Delaware                                    $0         $0               $0   North Carolina         $0         $0               $0
District of Columbia – AARP                 $0         $0               $0   North Dakota           $0         $0               $0
District of Columbia – FH                   $0         $0               $0   Ohio                   $0         $0               $0
Florida                                     $0         $0               $0   Oklahoma               $0         $0               $0
Georgia – AAA                               $0         $0               $0   Oregon                 $0         $0               $0
Georgia – GeorgiaCares                      $0         $0               $0   Pennsylvania           $0         $0               $0
Guam                                        $0         $0               $0   Puerto Rico            $0         $0               $0
Hawaii                                      $0         $0               $0   Rhode Island           $0         $0               $0
Idaho                                       $0         $0               $0   South Carolina         $0         $0               $0
Illinois                                    $0         $0               $0   South Dakota           $0         $0               $0
Indiana                                     $0         $0               $0   Tennessee              $0         $0               $0
Iowa                                        $0         $0               $0   Texas – BBBEF          $0         $0               $0
Kansas                                      $0         $0               $0   Texas – NHCOA          $0         $0               $0
Kentucky                                    $0         $0               $0   Utah                   $0         $0               $0
Louisiana                                   $0         $0               $0   Vermont                $0         $0               $0
Maine                                       $0         $0               $0   Virginia               $0         $0               $0
Maryland                                    $0         $0               $0   Virgin Islands         $0         $0               $0
Massachusetts                               $0         $0               $0   Washington             $0         $0               $0
Michigan                                    $0         $0               $0   West Virginia          $0         $0               $0
Minnesota                                   $0         $0               $0   Wisconsin              $0         $0               $0
Mississippi                                 $0         $0               $0   Wyoming                $0         $0               $0
Missouri                                    $0         $0               $0




                                                                                                  32
A P P E N D       I X         ~   C




                                      

                        PERFORMANCE MEASURE 17C: Actual Savings to Beneficiaries Attributable to the Projects
                                      Jan–June    July–Dec    Total for 2008                    Jan–June    July–Dec   Total for 2008
Alabama                                      $0          $0               $0   Montana            $10,256       $382          $10,638
Alaska                                       $0          $0               $0   Nebraska                $0         $0               $0
Arizona                                      $0          $0               $0   Nevada                  $0         $0               $0
Arkansas                                     $0          $0               $0   New Hampshire           $0         $0               $0
California                                   $0          $0               $0   New Jersey              $0         $0               $0
Colorado                                 $3,434      $3,116           $6,550   New Mexico          $4,162         $0           $4,162
Connecticut                                  $0          $0               $0   New York                $0         $0               $0
Delaware                                     $0          $0               $0   North Carolina          $0         $0               $0
District of Columbia – AARP                  $0          $0               $0   North Dakota            $0         $0               $0
District of Columbia – FH                    $0          $0               $0   Ohio                    $0         $0               $0
Florida                                    $398       $118              $516   Oklahoma                $0         $0               $0
Georgia – AAA                                $0          $0               $0   Oregon                  $0         $0               $0
Georgia – GeorgiaCares                       $0          $0               $0   Pennsylvania            $0         $0               $0
Guam                                         $0       $477              $477   Puerto Rico             $0         $0               $0
Hawaii                                       $0          $0               $0   Rhode Island            $0         $0               $0
Idaho                                      $858       $584            $1,442   South Carolina          $0         $0               $0
Illinois                                   $909      $1,668           $2,577   South Dakota            $0         $0               $0
Indiana                                      $0          $0               $0   Tennessee             $133       $386             $518
Iowa                                         $0          $0               $0   Texas – BBBEF           $0         $0               $0
Kansas                                     $100          $0             $100   Texas – NHCOA       $1,085         $0           $1,085
Kentucky                                     $0          $0               $0   Utah                $1,326         $0           $1,326
Louisiana                                    $0          $0               $0   Vermont                 $0         $0               $0
Maine                                        $0        $585             $585   Virginia                $0         $0               $0
Maryland                                     $0          $0               $0   Virgin Islands          $0         $0               $0
Massachusetts                                $0          $0               $0   Washington              $0         $0               $0
Michigan                                     $0          $0               $0   West Virginia           $0         $0               $0
Minnesota                                $1,964          $0           $1,964   Wisconsin               $0         $0               $0
Mississippi                                  $0          $0               $0   Wyoming                 $0         $0               $0
Missouri                                 $2,607          $0           $2,607




                                                                                                    33
A P P E N D       I X         ~   C




                                      

                                  PERFORMANCE MEASURE 17D: Other Savings Attributable to the Projects
                                      Jan–June   July–Dec   Total for 2008                    Jan–June    July–Dec    Total for 2008
Alabama                                     $0         $0               $0   Montana                 $0          $0               $0
Alaska                                      $0         $0               $0   Nebraska                $0      $3,114           $3,114
Arizona                                     $0         $0               $0   Nevada                  $0          $0               $0
Arkansas                                    $0         $0               $0   New Hampshire           $0          $0               $0
California                                  $0         $0               $0   New Jersey              $0          $0               $0
Colorado                                    $0         $0               $0   New Mexico              $0          $0               $0
Connecticut                                 $0         $0               $0   New York                $0          $0               $0
Delaware                                    $0         $0               $0   North Carolina          $0          $0               $0
District of Columbia – AARP                 $0         $0               $0   North Dakota            $0          $0               $0
District of Columbia – FH                   $0         $0               $0   Ohio                    $0          $0               $0
Florida                                     $0         $0               $0   Oklahoma                $0          $0               $0
Georgia – AAA                               $0         $0               $0   Oregon                  $0          $0               $0
Georgia – GeorgiaCares                      $0         $0               $0   Pennsylvania            $0          $0               $0
Guam                                        $0         $0               $0   Puerto Rico             $0          $0               $0
Hawaii                                      $0         $0               $0   Rhode Island            $0          $0               $0
Idaho                                       $0         $0               $0   South Carolina          $0          $0               $0
Illinois                                    $0         $0               $0   South Dakota            $0          $0               $0
Indiana                                     $0         $0               $0   Tennessee               $0          $0               $0
Iowa                                        $0         $0               $0   Texas – BBBEF           $0          $0               $0
Kansas                                      $0         $0               $0   Texas – NHCOA           $0        $130             $130
Kentucky                                    $0         $0               $0   Utah                $5,909          $0           $5,909
Louisiana                                   $0         $0               $0   Vermont                 $0          $0               $0
Maine                                       $0         $0               $0   Virginia                $0          $0               $0
Maryland                                    $0         $0               $0   Virgin Islands          $0          $0               $0
Massachusetts                               $0         $0               $0   Washington              $0          $0               $0
Michigan                                    $0         $0               $0   West Virginia           $0          $0               $0
Minnesota                                 $968         $0             $968   Wisconsin               $0          $0               $0
Mississippi                                 $0         $0               $0   Wyoming                 $0          $0               $0
Missouri                                    $0         $0               $0




                                                                                                  34
  Δ       A P P E N D I X               ~     D




                                       Individual Project Results for 2008
The following tables provide the results for each performance measure for each of the 57 Senior Medicare Patrol Projects operating in
2008. Each table provides the performance measure results for the two 6-month reporting periods.

Totals may not add up because of rounding.

Two projects, the District of Columbia Friendship House Association and the Georgia Department of Human Resources, closed in
2008.

For performance measure #1,“Total number of active volunteers,” many of the volunteers are the same in both of the two 6-month
periods and therefore the numbers do not sum to the total for the year.

For performance measure #15, “Number of complex issues pending further action,” many of the complex issues are the same in both
of the two 6-month periods and therefore the numbers do not sum to the total for the year.




                                                                                                        35
A P P E N D       I X ~ D




                                

                                           Alabama – Department of Senior Services, Montgomery
In operation since: July 2006
                                                                                          Jan–June        July–Dec   Total for 2008
                                       OUTPUT MEASURES
1            Total number of active volunteers                                                  25              21              31
2            Total number of volunteer training hours                                           80              67             147
3            Total number of volunteer work hours                                              117           2,993           3,110
4            Number of media outreach events                                                    88             127             215
5            Number of community outreach education events conducted                           194             131             325
6            Estimated number of people reached by community outreach education
             events                                                                         18,033          11,054          29,087
7            Number of group education sessions for beneficiaries                              180             149             329
8A           Number of beneficiaries who attended group education sessions                   5,983           4,249          10,232
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                 221            177              398
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                         104            150              254
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                104            401              505
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                        49            165              214
10           Total number of simple inquiries received                                         198            226              424
11           Total number of simple inquiries resolved                                         195            223              418
12           Number of inquiries involving complex issues received                              31              4               35
13A          Number of inquiries involving complex issues referred for further action            1              0                1
13B          Total dollar amount referred for further action                               $13,523             $0          $13,523
14           Number of complex issues resolved                                                  22              7               29
15           Number of complex issues pending further action                                    22             22               22
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                   $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0



                                                                                                     36
 A P P E N D         I X ~ D




                                  

                                      Alaska – Medicare Senior Information & Referral Office, Anchorage
In operation since: July 1999                                                             Jan–June        July–Dec   Total for 2008
                                         OUTPUT MEASURES
1            Total number of active volunteers                                                  28             19               33
2            Total number of volunteer training hours                                           74            154              228
3            Total number of volunteer work hours                                              633              0              633
4            Number of media outreach events                                                    31              2               33
5            Number of community outreach education events conducted                             3              6                9
6            Estimated number of people reached by community outreach education
             events                                                                            120          94,451          94,571
7            Number of group education sessions for beneficiaries                                3              3                6
8A           Number of beneficiaries who attended group education sessions                     118            161              279
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                  17              0               17
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                          17              0               17
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                 16              0               16
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         1              0                1
10           Total number of simple inquiries received                                          11              5               16
11           Total number of simple inquiries resolved                                           7              5               12
12           Number of inquiries involving complex issues received                               0              3                3
13A          Number of inquiries involving complex issues referred for further action            0              0                0
13B          Total dollar amount referred for further action                                    $0             $0               $0
14           Number of complex issues resolved                                                   0              0                0
15           Number of complex issues pending further action                                     1              1                1
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                   $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0



                                                                                                     37
A P P E N D       I X       ~     D




                                      

                                          Arizona – Arizona Department of Economic Security, Phoenix
In operation since: July 1999                                                             Jan–June        July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                  15             14               25
2            Total number of volunteer training hours                                            0              0                0
3            Total number of volunteer work hours                                            1,518           4,516           6,034
4            Number of media outreach events                                                     0               0               0
5            Number of community outreach education events conducted                            62             26               88
6            Estimated number of people reached by community outreach education
             events                                                                          1,471           2,035           3,506
7            Number of group education sessions for beneficiaries                               18             74               92
8A           Number of beneficiaries who attended group education sessions                     651           4,862           5,513
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                  19             55               74
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                          30             63               93
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                 15             35               50
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         0              2                2
10           Total number of simple inquiries received                                         360            175              535
11           Total number of simple inquiries resolved                                         360            175              535
12           Number of inquiries involving complex issues received                               0              9                9
13A          Number of inquiries involving complex issues referred for further action            0              1                1
13B          Total dollar amount referred for further action                                    $0             $0               $0
14           Number of complex issues resolved                                                   6              4               10
15           Number of complex issues pending further action                                     4              4                4
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                   $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0



                                                                                                     38
A P P E N D       I X       ~     D




                                      

             Arkansas – Arkansas Department of Human Services, Division of Aging and Adult Services, Little Rock
In operation since: July 2002                                                             Jan–June        July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                  69             57               99
2            Total number of volunteer training hours                                          122             70              192
3            Total number of volunteer work hours                                              574           1,305           1,879
4            Number of media outreach events                                                    30             360             390
5            Number of community outreach education events conducted                            16             24               40
6            Estimated number of people reached by community outreach education
             events                                                                          2,321           3,705           6,026
7            Number of group education sessions for beneficiaries                               21             42               63
8A           Number of beneficiaries who attended group education sessions                     451           2,114           2,565
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                 146            281              427
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                         177            334              511
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                 81            339              420
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                       327            378              705
10           Total number of simple inquiries received                                         203            211              414
11           Total number of simple inquiries resolved                                         197            210              407
12           Number of inquiries involving complex issues received                              39             19               58
13A          Number of inquiries involving complex issues referred for further action           2               2                4
13B          Total dollar amount referred for further action                                  $119           $590             $709
14           Number of complex issues resolved                                                  18              4               22
15           Number of complex issues pending further action                                    73             73               73
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                   $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0



                                                                                                     39
A P P E N D       I X       ~     D




                                      

                 California – California Health Insurance Counseling Advocacy Programs Association, Santa Ana
In operation since: July 1997                                                             Jan–June        July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                 130            161              242
2            Total number of volunteer training hours                                          258            180              438
3            Total number of volunteer work hours                                            1,105           1,349           2,454
4            Number of media outreach events                                                    57             259             316
5            Number of community outreach education events conducted                            17             61               78
6            Estimated number of people reached by community outreach education
             events                                                                          1,097          10,705          11,802
7            Number of group education sessions for beneficiaries                              329            380              709
8A           Number of beneficiaries who attended group education sessions                   8,284          11,628          19,912
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                  35             29               64
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                          30             49               79
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                 27             43               70
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         0              1                1
10           Total number of simple inquiries received                                          27             20               47
11           Total number of simple inquiries resolved                                          24             19               43
12           Number of inquiries involving complex issues received                              47             52               99
13A          Number of inquiries involving complex issues referred for further action           44             42               86
13B          Total dollar amount referred for further action                              $829,756        $107,496        $937,252
14           Number of complex issues resolved                                                  10             14               24
15           Number of complex issues pending further action                                   157            157              157
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                   $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0


                                                                                                     40
A P P E N D       I X       ~     D




                                      

                                                 Colorado – Colorado Division of Insurance, Denver
In operation since: July 1997                                                             Jan–June        July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                  62              3               62
2            Total number of volunteer training hours                                          959              3              962
3            Total number of volunteer work hours                                              492              3              495
4            Number of media outreach events                                                    13             37               50
5            Number of community outreach education events conducted                            10              7               17
6            Estimated number of people reached by community outreach education
             events                                                                            514            370              884
7            Number of group education sessions for beneficiaries                               34             36               70
8A           Number of beneficiaries who attended group education sessions                     587            855            1,442
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                   0              0                0
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                           0              0                0
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                  0              0                0
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         0              0                0
10           Total number of simple inquiries received                                          14             52               66
11           Total number of simple inquiries resolved                                          14             52               66
12           Number of inquiries involving complex issues received                              22              7               29
13A          Number of inquiries involving complex issues referred for further action           14             13               27
13B          Total dollar amount referred for further action                              $128,827         $42,440        $171,268
14           Number of complex issues resolved                                                   6              6               12
15           Number of complex issues pending further action                                    51             51               51
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others         $963             $0             $963
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                   $3,434          $3,116          $6,550
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                   $0             $0               $0
17A –17D     Total savings attributable to the projects                                     $3,434          $3,116          $6,550

                                                                                                     41
A P P E N D       I X       ~     D




                                      

                    Connecticut – Connecticut Department of Social Services, Aging Services Division, Hartford
In operation since: July 1999                                                             Jan–June        July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                  36             31               67
2            Total number of volunteer training hours                                          548            616            1,164
3            Total number of volunteer work hours                                            1,016              6            1,022
4            Number of media outreach events                                                    21              9               30
5            Number of community outreach education events conducted                            36             29               65
6            Estimated number of people reached by community outreach education
             events                                                                          6,366         560,293         566,659
7            Number of group education sessions for beneficiaries                               30             25               55
8A           Number of beneficiaries who attended group education sessions                     897            895            1,792
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                 233            262              495
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                         329            336              665
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                166            122              288
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         0              3                3
10           Total number of simple inquiries received                                          28            112              140
11           Total number of simple inquiries resolved                                          28            112              140
12           Number of inquiries involving complex issues received                              15              7               22
13A          Number of inquiries involving complex issues referred for further action            0              2                2
13B          Total dollar amount referred for further action                                  $240          $1,692          $1,932
14           Number of complex issues resolved                                                   3              2                5
15           Number of complex issues pending further action                                    15             15               15
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                   $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0

                                                                                                     42
A P P E N D       I X       ~     D




                                      

               Delaware – Delaware Partners - Division of Aging and Adults With Physical Disabilities, New Castle
In operation since: July 1999                                                             Jan–June        July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                  19             21               23
2            Total number of volunteer training hours                                          173           1,078           1,251
3            Total number of volunteer work hours                                              569           1,386           1,955
4            Number of media outreach events                                                     5               0               5
5            Number of community outreach education events conducted                            39             29               68
6            Estimated number of people reached by community outreach education
             events                                                                          1,976           3,008           4,984
7            Number of group education sessions for beneficiaries                               20             18               38
8A           Number of beneficiaries who attended group education sessions                     459            327              786
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                  56            147              203
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                         132            161              293
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                 46            100              146
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                       113            178              291
10           Total number of simple inquiries received                                          48             59              107
11           Total number of simple inquiries resolved                                          41             39               80
12           Number of inquiries involving complex issues received                              11              7               18
13A          Number of inquiries involving complex issues referred for further action            0              0                0
13B          Total dollar amount referred for further action                                $1,842           $465           $2,307
14           Number of complex issues resolved                                                   5              5               10
15           Number of complex issues pending further action                                    11             11               11
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                   $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0
                                                                                                     43
A P P E N D       I X       ~     D




                                      

                                          District of Columbia – The AARP Foundation, Washington, DC
In operation since: July 1999                                                             Jan–June        July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                  27             46               55
2            Total number of volunteer training hours                                          158            219              377
3            Total number of volunteer work hours                                              186            136              322
4            Number of media outreach events                                                     3            139              142
5            Number of community outreach education events conducted                            11             20               31
6            Estimated number of people reached by community outreach education
             events                                                                          8,695           6,501          15,196
7            Number of group education sessions for beneficiaries                               17             23               40
8A           Number of beneficiaries who attended group education sessions                     332            366              698
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                  70            103              173
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                         128            159              287
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                 14             44               58
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         2              7                9
10           Total number of simple inquiries received                                          25             21               46
11           Total number of simple inquiries resolved                                          25             21               46
12           Number of inquiries involving complex issues received                               6              3                9
13A          Number of inquiries involving complex issues referred for further action            4              1                5
13B          Total dollar amount referred for further action                                  $600             $0             $600
14           Number of complex issues resolved                                                   4              1                5
15           Number of complex issues pending further action                                     2              2                2
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                   $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0

                                                                                                     44
A P P E N D       I X       ~     D




                                      

                                   District of Columbia – Friendship House Association, Washington, DC
In operation since: July 1999 (closed June 2008)                                          Jan–June        July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                   4              0                4
2            Total number of volunteer training hours                                            0              0                0
3            Total number of volunteer work hours                                               22              0               22
4            Number of media outreach events                                                     0              0                0
5            Number of community outreach education events conducted                             2              0                2
6            Estimated number of people reached by community outreach education
             events                                                                             20              0               20
7            Number of group education sessions for beneficiaries                                1              0                1
8A           Number of beneficiaries who attended group education sessions                       0              0                0
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                   4              0                4
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                          10              0               10
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                  2              0                2
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         0              0                0
10           Total number of simple inquiries received                                           0              0                0
11           Total number of simple inquiries resolved                                           0              0                0
12           Number of inquiries involving complex issues received                               0              0                0
13A          Number of inquiries involving complex issues referred for further action           0               0                0
13B          Total dollar amount referred for further action                                    $0             $0               $0
14           Number of complex issues resolved                                                   0              0                0
15           Number of complex issues pending further action                                     0              0                0
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                   $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0
                                                                                                     45
A P P E N D       I X       ~     D




                                      

                                   Florida – Area Agency on Aging of Pasco Pinellas, Inc., St. Petersburg

In operation since: July 1999                                                             Jan–June          July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                 157              111              234
2            Total number of volunteer training hours                                          264              177              441
3            Total number of volunteer work hours                                              348              586              934
4            Number of media outreach events                                                    34               55               89
5            Number of community outreach education events conducted                            83               89              172
6            Estimated number of people reached by community outreach education
             events                                                                          9,627             8,286          17,913
7            Number of group education sessions for beneficiaries                              103              140              243
8A           Number of beneficiaries who attended group education sessions                   4,523             4,419           8,942
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                  12              128              140
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                          29              167              196
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                  4              111              115
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         9                1               10
10           Total number of simple inquiries received                                          55               47              102
11           Total number of simple inquiries resolved                                          54               47              101
12           Number of inquiries involving complex issues received                              52               30               82
13A          Number of inquiries involving complex issues referred for further action           14               17               31
13B          Total dollar amount referred for further action                               $39,075           $35,138         $74,213
14           Number of complex issues resolved                                                  26                7               33
15           Number of complex issues pending further action                                   159              160              160
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others          $60               $0              $60
17A          Actual Medicare funds recovered attributable to the projects                     $615               $0             $615
17B          Actual Medicaid funds recovered attributable to the projects                       $0               $0               $0
17C          Actual savings to beneficiaries attributable to the projects                     $398             $118             $516
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                   $0               $0               $0
17A –17D     Total savings attributable to the projects                                     $1,013             $118           $1,131
                                                                                                     46
A P P E N D       I X       ~     D




                                      

                                  Georgia – Atlanta Regional Commission, Area Agency on Aging, Atlanta
In operation since: July 1999 (closed Dec 2008)
                                                                                          Jan–June        July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                  24              3               24
2            Total number of volunteer training hours                                          250             10              260
3            Total number of volunteer work hours                                              164              0              164
4            Number of media outreach events                                                    10              0               10
5            Number of community outreach education events conducted                             6              0                6
6            Estimated number of people reached by community outreach education
             events                                                                            274              0              274
7            Number of group education sessions for beneficiaries                              104              0              104
8A           Number of beneficiaries who attended group education sessions                   2,450              0            2,450
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                 217              0              217
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                         272              0              272
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                191              0              191
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                        90              0               90
10           Total number of simple inquiries received                                          80              0               80
11           Total number of simple inquiries resolved                                          80              0               80
12           Number of inquiries involving complex issues received                              59              0               59
13A          Number of inquiries involving complex issues referred for further action           7               2                9
13B          Total dollar amount referred for further action                               $30,347             $0          $30,347
14           Number of complex issues resolved                                                  33              6               39
15           Number of complex issues pending further action                                    36             36               36
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                   $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0
                                                                                                     47
A     P   P E N D    I X      ~     D

                    Georgia – GeorgiaCares Department of Human Resources, Division of Aging Services, Atlanta
In operation since: July 1999                                                             Jan–June        July–Dec   Total for 2008
                                         OUTPUT MEASURES
1            Total number of active volunteers                                                  91             57              115
2            Total number of volunteer training hours                                          163            227              390
3            Total number of volunteer work hours                                            1,042           2,183           3,225
4            Number of media outreach events                                                    84           3,682           3,766
5            Number of community outreach education events conducted                           242             73              315
6            Estimated number of people reached by community outreach education
             events                                                                         25,758          12,744          38,502
7            Number of group education sessions for beneficiaries                              226            201              427
8A           Number of beneficiaries who attended group education sessions                   7,528           7,103          14,631
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                  24            480              504
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                          28            595              623
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                 14            495              509
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         4             39               43
10           Total number of simple inquiries received                                         702           1,769           2,471
11           Total number of simple inquiries resolved                                         698           1,762           2,460
12           Number of inquiries involving complex issues received                               0             56               56
13A          Number of inquiries involving complex issues referred for further action            1             16               17
13B          Total dollar amount referred for further action                                    $0         $21,850         $21,850
14           Number of complex issues resolved                                                   0             12               12
15           Number of complex issues pending further action                                    47             47               47
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                   $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0

                                                                                                     48
A P P E N D       I X       ~     D




                                      

                    Guam – Division of Senior Citizens, Department of Public Health & Social Services, Hagatna
In operation since: July 2005                                                             Jan–June        July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                  16              9               18
2            Total number of volunteer training hours                                          384            183              567
3            Total number of volunteer work hours                                              587             657           1,244
4            Number of media outreach events                                                25,916          18,537          44,453
5            Number of community outreach education events conducted                            13             12               25
6            Estimated number of people reached by community outreach education
             events                                                                            917           1,488           2,405
7            Number of group education sessions for beneficiaries                                0             54               54
8A           Number of beneficiaries who attended group education sessions                       0            991              991
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                   0            273              273
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                           0            239              239
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                  0            256              256
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                        23             59               82
10           Total number of simple inquiries received                                         304            555              859
11           Total number of simple inquiries resolved                                         304            555              859
12           Number of inquiries involving complex issues received                               1              3                4
13A          Number of inquiries involving complex issues referred for further action           0               1                1
13B          Total dollar amount referred for further action                                    $0          $1,073          $1,073
14           Number of complex issues resolved                                                   0              3                3
15           Number of complex issues pending further action                                     6              6                6
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0           $477             $477
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                   $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0           $477             $477


                                                                                                     49
A P P E N D       I X       ~     D




                                      

                                          Hawaii – State of Hawaii Executive Office on Aging, Honolulu
In operation since: July 1997                                                             Jan–June            July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                  16                 30               36
2            Total number of volunteer training hours                                           31                 52               83
3            Total number of volunteer work hours                                              162                180              342
4            Number of media outreach events                                                     0                  0                0
5            Number of community outreach education events conducted                             8                 16               24
6            Estimated number of people reached by community outreach education
             events                                                                          1,715               2,660           4,375
7            Number of group education sessions for beneficiaries                               11                 23               34
8A           Number of beneficiaries who attended group education sessions                     361                732            1,093
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                   3                  0                3
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                           3                  0                3
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                  2                  0                2
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         0                  0                0
10           Total number of simple inquiries received                                          37                 35               72
11           Total number of simple inquiries resolved                                          37                 35               72
12           Number of inquiries involving complex issues received                               2                  5                7
13A          Number of inquiries involving complex issues referred for further action           0                   8                8
13B          Total dollar amount referred for further action                                    $0               $989             $989
14           Number of complex issues resolved                                                   5                  0                5
15           Number of complex issues pending further action                                     2                  2                2
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0                 $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0                 $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0                 $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0                 $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                   $0                 $0               $0
17A –17D     Total savings attributable to the projects                                         $0                 $0               $0


                                                                                                         50
A P P E N D       I X       ~     D




                                      

                                                     Idaho – Idaho Commission on Aging, Boise
In operation since: July 1999                                                             Jan–June         July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                   99            123              172
2            Total number of volunteer training hours                                           807            787            1,594
3            Total number of volunteer work hours                                            1,051            3,557           4,608
4            Number of media outreach events                                                     4                5               9
5            Number of community outreach education events conducted                             28             29               57
6            Estimated number of people reached by community outreach education
             events                                                                          2,756            1,929           4,685
7            Number of group education sessions for beneficiaries                                39             69              108
8A           Number of beneficiaries who attended group education sessions                   1,413            2,242           3,655
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                  127            656              783
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                          213            894            1,107
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                 163            354              517
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                          2            171              173
10           Total number of simple inquiries received                                          726           1,520           2,246
11           Total number of simple inquiries resolved                                          726           1,520           2,246
12           Number of inquiries involving complex issues received                              17               1               18
13A          Number of inquiries involving complex issues referred for further action            0               0                0
13B          Total dollar amount referred for further action                                $1,583          $10,459         $12,042
14           Number of complex issues resolved                                                  17               3               20
15           Number of complex issues pending further action                                     7               7                7
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others       $1,369           $2,512          $3,881
17A          Actual Medicare funds recovered attributable to the projects                        $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                        $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                     $858            $584           $1,442
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0             $0               $0
17A –17D     Total savings attributable to the projects                                       $858            $584           $1,442


                                                                                                      51
A P P E N D       I X       ~     D




                                      

                                                               Illinois – AgeOptions, Oak Park
In operation since: July 2006                                                                    Jan–June        July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                         34             15               40
2            Total number of volunteer training hours                                                  48              4               52
3            Total number of volunteer work hours                                                     518             75              593
4            Number of media outreach events                                                           35             33               68
5            Number of community outreach education events conducted                                   86             96              182
6            Estimated number of people reached by community outreach education
             events                                                                                 5,581          11,459          17,040
7            Number of group education sessions for beneficiaries                                     126            126              252
8A           Number of beneficiaries who attended group education sessions                          3,196           3,555           6,751
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                         29             31               60
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                                 29             40               69
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                        21             17               38
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                               70            115              185
10           Total number of simple inquiries received                                                 92            112              204
11           Total number of simple inquiries resolved                                                 91            112              203
12           Number of inquiries involving complex issues received                                     17             17               34
13A          Number of inquiries involving complex issues referred for further action                   7              3               10
13B          Total dollar amount referred for further action                                       $1,816         $11,697         $13,513
14           Number of complex issues resolved                                                         10             21               31
15           Number of complex issues pending further action                                            6              6                6
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others                  $0           $105             $105
17A          Actual Medicare funds recovered attributable to the projects                              $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                              $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                            $909          $1,668          $2,577
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                          $0             $0               $0
17A –17D     Total savings attributable to the projects                                              $909          $1,668          $2,577


                                                                                                            52
A P P E N D       I X       ~     D




                                      

                     Indiana – Indiana Association of Area Agencies on Aging, Education Institute, Indianapolis
In operation since: July 1999                                                             Jan–June        July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                  66            306              337
2            Total number of volunteer training hours                                           62            665              727
3            Total number of volunteer work hours                                              407             618           1,025
4            Number of media outreach events                                                 1,090           1,987           3,077
5            Number of community outreach education events conducted                            69             81              150
6            Estimated number of people reached by community outreach education
             events                                                                         13,790          15,746          29,536
7            Number of group education sessions for beneficiaries                               75            124              199
8A           Number of beneficiaries who attended group education sessions                   1,742           2,929           4,671
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                 104             45              149
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                         177             59              236
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                 99             31              130
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                        12            186              198
10           Total number of simple inquiries received                                          54             97              151
11           Total number of simple inquiries resolved                                          54             96              150
12           Number of inquiries involving complex issues received                               8              8               16
13A          Number of inquiries involving complex issues referred for further action            3              3                6
13B          Total dollar amount referred for further action                                $4,658           $433           $5,092
14           Number of complex issues resolved                                                   3              3                6
15           Number of complex issues pending further action                                    18             18               18
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                   $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0


                                                                                                     53
A    P   P E N D   I X      ~      D




                                         

                                             Iowa – Hawkeye Valley Area Agency on Aging, Waterloo
In operation since: July 1997                                                             Jan–June            July–Dec   Total for 2008
                                         OUTPUT MEASURES
1            Total number of active volunteers                                                  56                 42               70
2            Total number of volunteer training hours                                           25                198              223
3            Total number of volunteer work hours                                            1,535               1,030           2,565
4            Number of media outreach events                                                   213                  38             251
5            Number of community outreach education events conducted                           284                149              433
6            Estimated number of people reached by community outreach education
             events                                                                         16,447               2,145          18,592
7            Number of group education sessions for beneficiaries                              267                190              457
8A           Number of beneficiaries who attended group education sessions                   6,013               3,903           9,916
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                 209                 95              304
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                         458                263              721
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                201                 86              287
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                        48                 22               70
10           Total number of simple inquiries received                                         122                138              260
11           Total number of simple inquiries resolved                                         122                138              260
12           Number of inquiries involving complex issues received                               9                  9               18
13A          Number of inquiries involving complex issues referred for further action            5                  2                7
13B          Total dollar amount referred for further action                                  $354                $81             $435
14           Number of complex issues resolved                                                   5                  5               10
15           Number of complex issues pending further action                                    17                 17               17
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0                 $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0                 $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0                 $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0                 $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                   $0                 $0               $0
17A –17D     Total savings attributable to the projects                                         $0                 $0               $0




                                                                                                     54
                                                                                                          

A P P E N D       I X       ~     D




                                      

                                                          Kansas – Department on Aging, Topeka
In operation since: July 1997                                                              Jan–June            July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                      56              63              105
2            Total number of volunteer training hours                                              169             170              339
3            Total number of volunteer work hours                                                  141             205              346
4            Number of media outreach events                                                         0              18               18
5            Number of community outreach education events conducted                                19               4               23
6            Estimated number of people reached by community outreach education
             events                                                                               1,249           1,114           2,363
7            Number of group education sessions for beneficiaries                                   19              15               34
8A           Number of beneficiaries who attended group education sessions                        2,522            556            3,078
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                     132              38              170
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                             107              27              134
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                    135              35              170
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                             5               0                5
10           Total number of simple inquiries received                                              84              41              125
11           Total number of simple inquiries resolved                                              68              40              108
12           Number of inquiries involving complex issues received                                  25              15               40
13A          Number of inquiries involving complex issues referred for further action               12               3               15
13B          Total dollar amount referred for further action                                 $24,086            $39,212         $63,299
14           Number of complex issues resolved                                                       4               2                6
15           Number of complex issues pending further action                                        55              55               55
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others            $2,879             $0           $2,879
17A          Actual Medicare funds recovered attributable to the projects                           $0              $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                           $0              $0               $0
17C          Actual savings to beneficiaries attributable to the projects                         $100              $0             $100
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                       $0              $0               $0
17A –17D     Total savings attributable to the projects                                           $100              $0             $100


                                                                                                          55
A P P E N D       I X       ~     D




                                      

            Kentucky – Department of Housing & Family Services, Office for Aging and Disabled Citizens, Louisville
In operation since: July 2001                                                             Jan–June        July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                  67             91              126
2            Total number of volunteer training hours                                           83            575              658
3            Total number of volunteer work hours                                            1,787             961           2,748
4            Number of media outreach events                                                    88         114,133         114,221
5            Number of community outreach education events conducted                            63             52              115
6            Estimated number of people reached by community outreach education
             events                                                                          3,431           3,574           7,005
7            Number of group education sessions for beneficiaries                               31             37               68
8A           Number of beneficiaries who attended group education sessions                     792           7,059           7,851
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                 338            302              640
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                         216            360              576
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                238             56              294
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                       554            534            1,088
10           Total number of simple inquiries received                                         351           1,166           1,517
11           Total number of simple inquiries resolved                                         338           1,140           1,478
12           Number of inquiries involving complex issues received                               3             72               75
13A          Number of inquiries involving complex issues referred for further action            1              1                2
13B          Total dollar amount referred for further action                                    $0          $1,348          $1,348
14           Number of complex issues resolved                                                   2             63               65
15           Number of complex issues pending further action                                     4              4                4
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                   $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0


                                                                                                     56
A P P E N D       I X       ~     D




                                      

                                           Louisiana – Vernon Parish Council on Aging, Inc., Leesville
In operation since: July 2000                                                             Jan–June            July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                  10                  9               13
2            Total number of volunteer training hours                                           30                 93              123
3            Total number of volunteer work hours                                              389                393              782
4            Number of media outreach events                                                   255                 91              346
5            Number of community outreach education events conducted                            38                 13               51
6            Estimated number of people reached by community outreach education
             events                                                                            588                128              716
7            Number of group education sessions for beneficiaries                               18                  3               21
8A           Number of beneficiaries who attended group education sessions                     270                 37              307
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                   0                  7                7
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                          15                 12               27
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                  0                  1                1
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                        19                 26               45
10           Total number of simple inquiries received                                         172                331              503
11           Total number of simple inquiries resolved                                         172                331              503
12           Number of inquiries involving complex issues received                               0                  5                5
13A          Number of inquiries involving complex issues referred for further action            0                  0                0
13B          Total dollar amount referred for further action                                    $0                 $0               $0
14           Number of complex issues resolved                                                   0                  0                0
15           Number of complex issues pending further action                                     3                  3                3
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0                 $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0                 $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0                 $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0                 $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                   $0                 $0               $0
17A –17D     Total savings attributable to the projects                                         $0                 $0               $0


                                                                                                         57
A P P E N D       I X       ~     D




                                      

                                                  Maine – Legal Services for the Elderly, Augusta
In operation since: July 1999                                                             Jan–June           July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                  61                78               98
2            Total number of volunteer training hours                                         2,421              727            3,148
3            Total number of volunteer work hours                                             1,004             1,497           2,501
4            Number of media outreach events                                                  7,022             1,502           8,524
5            Number of community outreach education events conducted                            48                36               84
6            Estimated number of people reached by community outreach education
             events                                                                           2,959             1,816           4,775
7            Number of group education sessions for beneficiaries                               46                27               73
8A           Number of beneficiaries who attended group education sessions                    1,002              464            1,466
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                 123                 0              123
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                         162                 0              162
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                 90                 0               90
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                       138               874            1,012
10           Total number of simple inquiries received                                         329               176              505
11           Total number of simple inquiries resolved                                         329               167              496
12           Number of inquiries involving complex issues received                              12                 5               17
13A          Number of inquiries involving complex issues referred for further action               2              1                3
13B          Total dollar amount referred for further action                                    $0            $25,710         $25,710
14           Number of complex issues resolved                                                      1              0                1
15           Number of complex issues pending further action                                    17                17               17
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $2,175          $2,175
17A          Actual Medicare funds recovered attributable to the projects                       $0                $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0                $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0              $585             $585
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                   $0                $0               $0
17A –17D     Total savings attributable to the projects                                         $0              $585             $585



                                                                                                        58
A P P E N D       I X       ~     D




                                      

                                              Maryland – Maryland Department of Aging, Baltimore
In operation since: July 1997                                                             Jan–June        July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                 105            123              133
2            Total number of volunteer training hours                                        2,338           2,334           4,672
3            Total number of volunteer work hours                                            2,632           4,750           7,382
4            Number of media outreach events                                                    60              59             119
5            Number of community outreach education events conducted                            56             61              117
6            Estimated number of people reached by community outreach education
             events                                                                          4,473           9,167          13,640
7            Number of group education sessions for beneficiaries                               72             80              152
8A           Number of beneficiaries who attended group education sessions                   1,518           2,632           4,150
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                 220            207              427
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                         313            212              525
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                357            221              578
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                        83            185              268
10           Total number of simple inquiries received                                         395            635            1,030
11           Total number of simple inquiries resolved                                         387            634            1,021
12           Number of inquiries involving complex issues received                              40             46               86
13A          Number of inquiries involving complex issues referred for further action           2               1                3
13B          Total dollar amount referred for further action                                $9,024          $5,180         $14,204
14           Number of complex issues resolved                                                  25             13               38
15           Number of complex issues pending further action                                    21             21               21
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                   $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0


                                                                                                     59
A P P E N D       I X       ~     D




                                      

                                      Massachusetts – Elder Services of Merrimack Valley, Inc., Lawrence
In operation since: July 1999                                                             Jan–June         July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                  13              25               26
2            Total number of volunteer training hours                                        3,920             120            4,040
3            Total number of volunteer work hours                                            1,800            3,120           4,920
4            Number of media outreach events                                                11,000            2,116          13,116
5            Number of community outreach education events conducted                             6              10               16
6            Estimated number of people reached by community outreach education
             events                                                                            886             547            1,433
7            Number of group education sessions for beneficiaries                                9              12               21
8A           Number of beneficiaries who attended group education sessions                     266             439              705
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                 311             401              712
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                         208             402              610
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                177             338              515
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                        29              85              114
10           Total number of simple inquiries received                                          66             227              293
11           Total number of simple inquiries resolved                                          66             227              293
12           Number of inquiries involving complex issues received                              12              42               54
13A          Number of inquiries involving complex issues referred for further action           0                4                4
13B          Total dollar amount referred for further action                                   $74            $619             $693
14           Number of complex issues resolved                                                   3              24               27
15           Number of complex issues pending further action                                     5               5                5
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0              $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0              $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0              $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0              $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                   $0              $0               $0
17A –17D     Total savings attributable to the projects                                         $0              $0               $0



                                                                                                     60
A P P E N D       I X       ~     D




                                      

                                          Michigan – Medicare/Medicaid Assistance Program, Lansing
In operation since: July 1999                                                             Jan–June        July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                 154            301              320
2            Total number of volunteer training hours                                        1,070           5,647           6,717
3            Total number of volunteer work hours                                                8              0                8
4            Number of media outreach events                                                    16            134              150
5            Number of community outreach education events conducted                             9             22               31
6            Estimated number of people reached by community outreach education
             events                                                                            595          51,979          52,574
7            Number of group education sessions for beneficiaries                               91             15              106
8A           Number of beneficiaries who attended group education sessions                  58,457          18,287          76,744
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                   0             33               33
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                           0             27               27
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                  0             26               26
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         0              0                0
10           Total number of simple inquiries received                                         117              7              124
11           Total number of simple inquiries resolved                                         117              7              124
12           Number of inquiries involving complex issues received                              54              8               62
13A          Number of inquiries involving complex issues referred for further action           8               1                9
13B          Total dollar amount referred for further action                               $17,117          $1,560         $18,677
14           Number of complex issues resolved                                                  52              3               55
15           Number of complex issues pending further action                                    40             40               40
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                   $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0


                                                                                                     61
A P P E N D       I X       ~     D




                                      

                                  Minnesota – Minnesota Board on Aging/Senior LinkAge Line, Saint Paul
In operation since: July 1997                                                             Jan–June        July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                  42             49               78
2            Total number of volunteer training hours                                          216            378              594
3            Total number of volunteer work hours                                              227            168              395
4            Number of media outreach events                                                     8              0                8
5            Number of community outreach education events conducted                            18             19               37
6            Estimated number of people reached by community outreach education
             events                                                                          1,727           4,740           6,467
7            Number of group education sessions for beneficiaries                              184            130              314
8A           Number of beneficiaries who attended group education sessions                   1,918           1,325           3,243
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                  40             25               65
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                          53             23               76
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                 14             14               28
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                       125             88              213
10           Total number of simple inquiries received                                         201            235              436
11           Total number of simple inquiries resolved                                         201            235              436
12           Number of inquiries involving complex issues received                             745            538            1,283
13A          Number of inquiries involving complex issues referred for further action            2             45               47
13B          Total dollar amount referred for further action                               $37,101         $28,284         $65,385
14           Number of complex issues resolved                                                 705            545             1250
15           Number of complex issues pending further action                                    26             26               26
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others       $1,357          $2,852          $4,209
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                   $1,964             $0           $1,964
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                 $968             $0             $968
17A –17D     Total savings attributable to the projects                                     $2,932             $0           $2,932


                                                                                                     62
A P P E N D       I X       ~     D




                                      

            Mississippi – Mississippi Department of Human Services, Division of Aging and Adult Services, Jackson
In operation since: July 2000                                                             Jan. – June        July – Dec.   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                    30                 25               45
2            Total number of volunteer training hours                                            117                358              475
3            Total number of volunteer work hours                                              1,084              1,006            2,090
4            Number of media outreach events                                                       0            276,501          276,501
5            Number of community outreach education events conducted                              66                 65              131
6            Estimated number of people reached by community outreach education
             events                                                                            2,339              6,011            8,350
7            Number of group education sessions for beneficiaries                                 32                 16               48
8A           Number of beneficiaries who attended group education sessions                       755                624            1,379
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                     0                 17               17
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                             0                 15               15
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                    0                  3                3
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                           3                  0                3
10           Total number of simple inquiries received                                             2                 58               60
11           Total number of simple inquiries resolved                                             2                 58               60
12           Number of inquiries involving complex issues received                               234                145              379
13A          Number of inquiries involving complex issues referred for further action             11                  1               12
13B          Total dollar amount referred for further action                                    $250                 $0             $250
14           Number of complex issues resolved                                                    42                153              195
15           Number of complex issues pending further action                                      88                 88               88
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others             $0                 $0               $0
17A          Actual Medicare funds recovered attributable to the projects                         $0                 $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                         $0                 $0               $0
17C          Actual savings to beneficiaries attributable to the projects                         $0                 $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                     $0                 $0               $0
17A –17D     Total savings attributable to the projects                                           $0                 $0               $0


                                                                                                        63
A P P E N D       I X       ~     D




                                      

                                Missouri – SORT Program Care Connection for Aging Services, Warrensburg
In operation since: July 1997                                                             Jan–June        July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                  24             30               34
2            Total number of volunteer training hours                                            0              0                0
3            Total number of volunteer work hours                                              467            810            1,277
4            Number of media outreach events                                                     1              4                5
5            Number of community outreach education events conducted                           153            120              273
6            Estimated number of people reached by community outreach education
             events                                                                          4,860           5,177          10,037
7            Number of group education sessions for beneficiaries                               21             36               57
8A           Number of beneficiaries who attended group education sessions                     814            859            1,673
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                   9              0                9
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                          24              0               24
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                  6              0                6
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                       316              2              318
10           Total number of simple inquiries received                                         692           1,703           2,395
11           Total number of simple inquiries resolved                                         691           1,702           2,393
12           Number of inquiries involving complex issues received                              30             22               52
13A          Number of inquiries involving complex issues referred for further action            6              4               10
13B          Total dollar amount referred for further action                                $4,766           $840           $5,606
14           Number of complex issues resolved                                                   5              1                6
15           Number of complex issues pending further action                                    54             54               54
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                   $3,693             $0           $3,693
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                   $2,607             $0           $2,607
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                   $0             $0               $0
17A –17D     Total savings attributable to the projects                                     $6,300             $0           $6,300


                                                                                                     64
A P P E N D       I X       ~     D




                                      

                                                   Montana – Missoula Aging Services, Missoula
In operation since: July 1999                                                             Jan–June         July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                   47             52               52
2            Total number of volunteer training hours                                          188             130              318
3            Total number of volunteer work hours                                              300             181              481
4            Number of media outreach events                                                13,099             123           13,222
5            Number of community outreach education events conducted                             18             14               32
6            Estimated number of people reached by community outreach education
             events                                                                            919             698            1,617
7            Number of group education sessions for beneficiaries                                82             81              163
8A           Number of beneficiaries who attended group education sessions                   2,387            2,377           4,764
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                 101              30              131
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                         176              66              242
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                  71             34              105
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                       272             183              455
10           Total number of simple inquiries received                                            4              1                5
11           Total number of simple inquiries resolved                                            4              1                5
12           Number of inquiries involving complex issues received                                6              9               15
13A          Number of inquiries involving complex issues referred for further action            2               3                5
13B          Total dollar amount referred for further action                                $3,583          $12,426         $16,009
14           Number of complex issues resolved                                                    3              6                9
15           Number of complex issues pending further action                                     20             20               20
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others            $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                        $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                        $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                  $10,256            $382          $10,638
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0             $0               $0
17A –17D     Total savings attributable to the projects                                    $10,256            $382          $10,638


                                                                                                      65
A P P E N D       I X       ~     D




                                      

                   Nebraska – Nebraska Department of Health and Human Services-State Unit on Aging, Lincoln
In operation since: July 2000                                                             Jan–June        July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                  74             72              114
2            Total number of volunteer training hours                                        1,855            315            2,170
3            Total number of volunteer work hours                                              528              0              528
4            Number of media outreach events                                                    49              2               51
5            Number of community outreach education events conducted                            79             99              178
6            Estimated number of people reached by community outreach education
             events                                                                          6,531          10,655          17,186
7            Number of group education sessions for beneficiaries                               24             46               70
8A           Number of beneficiaries who attended group education sessions                     756           2,203           2,959
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                 161            102              263
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                         135            185              320
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                105            206              311
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         2             68               70
10           Total number of simple inquiries received                                       1,538           2,039           3,577
11           Total number of simple inquiries resolved                                       1,530           2,038           3,568
12           Number of inquiries involving complex issues received                              12             18               30
13A          Number of inquiries involving complex issues referred for further action           0               2                2
13B          Total dollar amount referred for further action                               $53,740         $18,288         $72,028
14           Number of complex issues resolved                                                   7             12               19
15           Number of complex issues pending further action                                    23             23               23
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others      $40,368           $193          $40,561
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                   $0          $3,114          $3,114
17A –17D     Total savings attributable to the projects                                         $0          $3,114          $3,114


                                                                                                     66
A P P E N D       I X       ~     D




                                      

                                      Nevada – State of Nevada Office of the Attorney General, Las Vegas
In operation since: July 1999                                                             Jan–June         July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                   2               0                2
2            Total number of volunteer training hours                                            1               0                1
3            Total number of volunteer work hours                                                3               0                3
4            Number of media outreach events                                                 1,733               3            1,736
5            Number of community outreach education events conducted                            14               9               23
6            Estimated number of people reached by community outreach education
             events                                                                          1,410            1,345           2,755
7            Number of group education sessions for beneficiaries                               21               3               24
8A           Number of beneficiaries who attended group education sessions                     872             180            1,052
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                  18               0               18
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                          23               0               23
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                  8               0                8
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                        15               6               21
10           Total number of simple inquiries received                                          74              23               97
11           Total number of simple inquiries resolved                                          61              23               84
12           Number of inquiries involving complex issues received                              20               3               23
13A          Number of inquiries involving complex issues referred for further action           4                1                5
13B          Total dollar amount referred for further action                               $18,844           $1,000         $19,844
14           Number of complex issues resolved                                                  11               6               17
15           Number of complex issues pending further action                                    18              18               18
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0              $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0              $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0              $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0              $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                   $0              $0               $0
17A –17D     Total savings attributable to the projects                                         $0              $0               $0


                                                                                                     67
A P P E N D       I X       ~     D




                                      

                           New Hampshire – New Hampshire Bureau of Elderly and Adult Services, Concord
In operation since: July 1997                                                             Jan–June        July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                   1             30               30
2            Total number of volunteer training hours                                            0            200              200
3            Total number of volunteer work hours                                                5             117             122
4            Number of media outreach events                                                 2,120           1,306           3,426
5            Number of community outreach education events conducted                            28             25               53
6            Estimated number of people reached by community outreach education
             events                                                                          1,634           6,173           7,807
7            Number of group education sessions for beneficiaries                               75             30              105
8A           Number of beneficiaries who attended group education sessions                   1,922            802            2,724
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                  84             41              125
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                         162             89              251
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                 68             54              122
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         0              2                2
10           Total number of simple inquiries received                                           1              3                4
11           Total number of simple inquiries resolved                                           1              3                4
12           Number of inquiries involving complex issues received                               3              8               11
13A          Number of inquiries involving complex issues referred for further action            0              2                2
13B          Total dollar amount referred for further action                                  $305          $9,546          $9,851
14           Number of complex issues resolved                                                   0              3                3
15           Number of complex issues pending further action                                    15             15               15
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                   $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0


                                                                                                     68
A P P E N D       I X       ~     D




                                      

                         New Jersey – Jewish Family & Vocational Services of Middlesex County, Inc., Edison
In operation since: July 2001                                                             Jan–June        July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                   8              4               10
2            Total number of volunteer training hours                                            0              4                4
3            Total number of volunteer work hours                                               58             27               85
4            Number of media outreach events                                                 1,022            234            1,256
5            Number of community outreach education events conducted                            28             13               41
6            Estimated number of people reached by community outreach education
             events                                                                          3,571            934            4,505
7            Number of group education sessions for beneficiaries                               58             64              122
8A           Number of beneficiaries who attended group education sessions                   1,875           1,931           3,806
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                 349            381              730
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                         587            568            1,155
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                261            224              485
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                        50             66              116
10           Total number of simple inquiries received                                         126             95              221
11           Total number of simple inquiries resolved                                         126             94              220
12           Number of inquiries involving complex issues received                              12             12               24
13A          Number of inquiries involving complex issues referred for further action           5               3                8
13B          Total dollar amount referred for further action                                $3,694         $87,026         $90,720
14           Number of complex issues resolved                                                   5              4                9
15           Number of complex issues pending further action                                    44             44               44
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                   $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0


                                                                                                     69
A P P E N D       I X       ~     D




                                      

                         New Mexico – New Mexico Aging and Long Term Services Department, Albuquerque
In operation since: July 1999                                                             Jan–June        July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                  23             31               32
2            Total number of volunteer training hours                                            0              0                0
3            Total number of volunteer work hours                                                0              0                0
4            Number of media outreach events                                                     0              0                0
5            Number of community outreach education events conducted                           168            160              328
6            Estimated number of people reached by community outreach education
             events                                                                          5,447          15,039          20,486
7            Number of group education sessions for beneficiaries                                0              0                0
8A           Number of beneficiaries who attended group education sessions                       0              0                0
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                   0              0                0
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                           0              0                0
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                  0              0                0
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         0              0                0
10           Total number of simple inquiries received                                           0              1                1
11           Total number of simple inquiries resolved                                           0              1                1
12           Number of inquiries involving complex issues received                              53             43               96
13A          Number of inquiries involving complex issues referred for further action            6              4               10
13B          Total dollar amount referred for further action                               $41,366        $183,677        $225,043
14           Number of complex issues resolved                                                  38             43               81
15           Number of complex issues pending further action                                    80             80               80
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others       $3,372         $10,411         $13,783
17A          Actual Medicare funds recovered attributable to the projects                       $0         $14,567         $14,567
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                   $4,162             $0           $4,162
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                   $0             $0               $0
17A –17D     Total savings attributable to the projects                                     $4,162         $14,567         $18,729


                                                                                                     70
A P P E N D       I X       ~     D




                                      

                                                    New York – Operation Restore Trust, Albany
In operation since: July 1997                                                             Jan–June          July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                   384            415              420
2            Total number of volunteer training hours                                        1,071              208            1,279
3            Total number of volunteer work hours                                                412           1,668           2,080
4            Number of media outreach events                                                      36              50              86
5            Number of community outreach education events conducted                              38            127              165
6            Estimated number of people reached by community outreach education
             events                                                                         11,744           229,339         241,083
7            Number of group education sessions for beneficiaries                                292            333              625
8A           Number of beneficiaries who attended group education sessions                  12,242            11,896          24,138
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                   115             47              162
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                           626             29              655
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                  111              7              118
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                          42           1,775           1,817
10           Total number of simple inquiries received                                            44             42               86
11           Total number of simple inquiries resolved                                           44              39               83
12           Number of inquiries involving complex issues received                               29              17               46
13A          Number of inquiries involving complex issues referred for further action             0               1                1
13B          Total dollar amount referred for further action                               $59,764           $47,583       $107,347
14           Number of complex issues resolved                                                   11              16               27
15           Number of complex issues pending further action                                     84              84               84
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others            $0              $0               $0
17A          Actual Medicare funds recovered attributable to the projects                   $2,193               $0           $2,193
17B          Actual Medicaid funds recovered attributable to the projects                         $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                        $0              $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0              $0               $0
17A –17D     Total savings attributable to the projects                                     $2,193               $0           $2,193


                                                                                                       71
A P P E N D       I X       ~     D




                                      

                                                 North Carolina – Department of Insurance, Raleigh
In operation since: July 2003                                                             Jan–June        July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                   4              4                4
2            Total number of volunteer training hours                                           13             46               59
3            Total number of volunteer work hours                                              215            171              386
4            Number of media outreach events                                                56,275            102           56,377
5            Number of community outreach education events conducted                            82             23              105
6            Estimated number of people reached by community outreach education
             events                                                                         16,650           3,738          20,388
7            Number of group education sessions for beneficiaries                               90             33              123
8A           Number of beneficiaries who attended group education sessions                   6,308           2,061           8,369
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                 513              0              513
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                         423            125              548
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                918             75              993
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         1              0                1
10           Total number of simple inquiries received                                           0              0                0
11           Total number of simple inquiries resolved                                           0              0                0
12           Number of inquiries involving complex issues received                               0              0                0
13A          Number of inquiries involving complex issues referred for further action            0              0                0
13B          Total dollar amount referred for further action                                    $0             $0               $0
14           Number of complex issues resolved                                                   0              0                0
15           Number of complex issues pending further action                                     0              0                0
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                   $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0


                                                                                                     72
A P P E N D       I X       ~     D




                                      

                                                    North Dakota – Minot State University, Minot
In operation since: July 2003                                                              Jan–June           July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                      16             15               28
2            Total number of volunteer training hours                                              16              28               44
3            Total number of volunteer work hours                                                   64             87              151
4            Number of media outreach events                                                         6              3                9
5            Number of community outreach education events conducted                                13             18               31
6            Estimated number of people reached by community outreach education
             events                                                                           1,403              2,453           3,856
7            Number of group education sessions for beneficiaries                                   42             39               81
8A           Number of beneficiaries who attended group education sessions                         930            989            1,919
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                     177            108              285
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                             273            104              377
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                     62             50              112
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                             9             17               26
10           Total number of simple inquiries received                                             105             33              138
11           Total number of simple inquiries resolved                                             105             33              138
12           Number of inquiries involving complex issues received                                  2               7                9
13A          Number of inquiries involving complex issues referred for further action               0               0                0
13B          Total dollar amount referred for further action                                        $0             $0               $0
14           Number of complex issues resolved                                                      2               5                7
15           Number of complex issues pending further action                                        0               0                0
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others              $0              $0               $0
17A          Actual Medicare funds recovered attributable to the projects                          $0              $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                           $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                          $0              $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                      $0              $0               $0
17A –17D     Total savings attributable to the projects                                             $0             $0               $0


                                                                                                         73
A P P E N D       I X       ~     D




                                      

                                                          Ohio – Pro Seniors, Inc., Cincinnati
In operation since: July 2002                                                                Jan–June          July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                      23              34               52
2            Total number of volunteer training hours                                               72             195              267
3            Total number of volunteer work hours                                                   92             140              232
4            Number of media outreach events                                                        23              22               45
5            Number of community outreach education events conducted                                17              13               30
6            Estimated number of people reached by community outreach education
             events                                                                               1,490           1,156           2,646
7            Number of group education sessions for beneficiaries                                   29              37               66
8A           Number of beneficiaries who attended group education sessions                         692             791            1,483
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                     123              85              208
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                             159              90              249
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                     89              30              119
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                            11               0               11
10           Total number of simple inquiries received                                              59              34               93
11           Total number of simple inquiries resolved                                              58              32               90
12           Number of inquiries involving complex issues received                                   7               8               15
13A          Number of inquiries involving complex issues referred for further action                2               3                5
13B          Total dollar amount referred for further action                                     $3,615          $2,109          $5,724
14           Number of complex issues resolved                                                       1               2                3
15           Number of complex issues pending further action                                        26              26               26
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others               $0              $0               $0
17A          Actual Medicare funds recovered attributable to the projects                           $0              $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                           $0              $0               $0
17C          Actual savings to beneficiaries attributable to the projects                           $0              $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                       $0              $0               $0
17A –17D     Total savings attributable to the projects                                             $0              $0               $0


                                                                                                          74
A P P E N D       I X       ~     D




                                      

                                 Oklahoma – State of Oklahoma Department of Insurance, Oklahoma City
In operation since: July 1999                                                             Jan–June        July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                  13             18               23
2            Total number of volunteer training hours                                            0             12               12
3            Total number of volunteer work hours                                              313            661              974
4            Number of media outreach events                                                     7            422              429
5            Number of community outreach education events conducted                            60             31               91
6            Estimated number of people reached by community outreach education
             events                                                                          3,903           5,115           9,018
7            Number of group education sessions for beneficiaries                               59             90              149
8A           Number of beneficiaries who attended group education sessions                  17,493           2,739          20,232
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                   0            136              136
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                           0            219              219
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                  0            237              237
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         2             32               34
10           Total number of simple inquiries received                                          31            116              147
11           Total number of simple inquiries resolved                                          31            115              146
12           Number of inquiries involving complex issues received                               3              3                6
13A          Number of inquiries involving complex issues referred for further action            0              0                0
13B          Total dollar amount referred for further action                                    $0             $0               $0
14           Number of complex issues resolved                                                   1              2                3
15           Number of complex issues pending further action                                     3              3                3
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                   $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0


                                                                                                     75
A P P E N D       I X       ~     D




                                       

                                      Oregon – Department of Human Services, State Unit on Aging, Salem
In operation since: July 1999                                                             Jan–June        July–Dec   Total for 2008
                                           OUTPUT MEASURES
1            Total number of active volunteers                                                 103            115              139
2            Total number of volunteer training hours                                            1              0                1
3            Total number of volunteer work hours                                              704            925            1,629
4            Number of media outreach events                                                    44             28               72
5            Number of community outreach education events conducted                             9             78               87
6            Estimated number of people reached by community outreach education
             events                                                                          3,754           4,765           8,519
7            Number of group education sessions for beneficiaries                                8             55               63
8A           Number of beneficiaries who attended group education sessions                     259           1,566           1,825
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                  63             19               82
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                          52             16               68
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                 71             13               84
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                       487           2,006           2,493
10           Total number of simple inquiries received                                          77            710              787
11           Total number of simple inquiries resolved                                          76            707              783
12           Number of inquiries involving complex issues received                               0             10               10
13A          Number of inquiries involving complex issues referred for further action           0               2                2
13B          Total dollar amount referred for further action                                    $0           $125             $125
14           Number of complex issues resolved                                                   1              1                2
15           Number of complex issues pending further action                                    11             11               11
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                   $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0


                                                                                                     76
A P P E N D       I X       ~     D




                                      

                    Pennsylvania – Center for Advocacy for the Rights and Interests of the Elderly, Philadelphia
In operation since: July 1997                                                             Jan–June        July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                  43             33               49
2            Total number of volunteer training hours                                           47              0               47
3            Total number of volunteer work hours                                              536            467            1,003
4            Number of media outreach events                                                     7              2                9
5            Number of community outreach education events conducted                            29             51               80
6            Estimated number of people reached by community outreach education
             events                                                                          2,268           3,506           5,774
7            Number of group education sessions for beneficiaries                               75             50              125
8A           Number of beneficiaries who attended group education sessions                   1,974           1,160           3,134
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                  43             66              109
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                          83             93              176
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                 30             34               64
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                        89            453              542
10           Total number of simple inquiries received                                           7             10               17
11           Total number of simple inquiries resolved                                           7             10               17
12           Number of inquiries involving complex issues received                               3             14               17
13A          Number of inquiries involving complex issues referred for further action            1              0                1
13B          Total dollar amount referred for further action                                    $0           $289             $289
14           Number of complex issues resolved                                                   0             10               10
15           Number of complex issues pending further action                                     9              9                9
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                   $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0


                                                                                                     77
A P P E N D       I X       ~     D




                                      

                                      Puerto Rico – Office of the Ombudsman for the Elderly, San Juan
In operation since: July 1999                                                             Jan–June        July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                  12             12               13
2            Total number of volunteer training hours                                          136             80              216
3            Total number of volunteer work hours                                               72            288              360
4            Number of media outreach events                                                     1              1                2
5            Number of community outreach education events conducted                            72             94              166
6            Estimated number of people reached by community outreach education
             events                                                                          5,399          11,431          16,830
7            Number of group education sessions for beneficiaries                               14             20               34
8A           Number of beneficiaries who attended group education sessions                     565            481            1,046
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                   0             62               62
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                           0             90               90
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                  0             60               60
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                       397            195              592
10           Total number of simple inquiries received                                         250            325              575
11           Total number of simple inquiries resolved                                         221            324              545
12           Number of inquiries involving complex issues received                               1              0                1
13A          Number of inquiries involving complex issues referred for further action            1              0                1
13B          Total dollar amount referred for further action                               $21,659             $0          $21,659
14           Number of complex issues resolved                                                   0              0                0
15           Number of complex issues pending further action                                     2              2                2
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                   $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0


                                                                                                     78
A P P E N D       I X       ~     D




                                      

                                             Rhode Island – Department of Elderly Affairs, Cranston
In operation since: July 2006                                                             Jan–June         July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                 138              12              139
2            Total number of volunteer training hours                                        1,297              11            1,308
3            Total number of volunteer work hours                                            1,712             300            2,012
4            Number of media outreach events                                                     7               1                8
5            Number of community outreach education events conducted                           149             127              276
6            Estimated number of people reached by community outreach education
             events                                                                         21,237           18,363          39,600
7            Number of group education sessions for beneficiaries                               37               9               46
8A           Number of beneficiaries who attended group education sessions                   1,817             608            2,425
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                 888               0              888
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                         805               0              805
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                812               0              812
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                       446             378              824
10           Total number of simple inquiries received                                         766             994            1,760
11           Total number of simple inquiries resolved                                         735             941            1,676
12           Number of inquiries involving complex issues received                              38               5               43
13A          Number of inquiries involving complex issues referred for further action           2                0                2
13B          Total dollar amount referred for further action                                    $0              $0               $0
14           Number of complex issues resolved                                                   2               1                3
15           Number of complex issues pending further action                                    41              41               41
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0              $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0              $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0              $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0              $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                   $0              $0               $0
17A –17D     Total savings attributable to the projects                                         $0              $0               $0


                                                                                                      79
A P P E N D       I X       ~     D




                                      

                                           South Carolina – Lt. Governor’s Office on Aging, Columbia
In operation since: July 2000                                                             Jan–June          July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                  45                0               45
2            Total number of volunteer training hours                                          432                0              432
3            Total number of volunteer work hours                                              841                0              841
4            Number of media outreach events                                                    13                0               13
5            Number of community outreach education events conducted                            76              112              188
6            Estimated number of people reached by community outreach education
             events                                                                         15,413             4,560          19,973
7            Number of group education sessions for beneficiaries                               38               13               51
8A           Number of beneficiaries who attended group education sessions                   1,007              640            1,647
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                   0               40               40
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                           0               24               24
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                  0               86               86
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         0               19               19
10           Total number of simple inquiries received                                         162               37              199
11           Total number of simple inquiries resolved                                         162               37              199
12           Number of inquiries involving complex issues received                               7                3               10
13A          Number of inquiries involving complex issues referred for further action            1                2                3
13B          Total dollar amount referred for further action                               $25,002            $1,615         $26,617
14           Number of complex issues resolved                                                   1                0                1
15           Number of complex issues pending further action                                    41               41               41
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0               $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0               $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0               $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0               $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                   $0               $0               $0
17A –17D     Total savings attributable to the projects                                         $0               $0               $0


                                                                                                       80
A P P E N D       I X       ~     D




                                      

                                      South Dakota – East River Legal Services Corporation, Sioux Falls
In operation since: July 2000                                                             Jan–June        July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                  29             94              103
2            Total number of volunteer training hours                                            0            533              533
3            Total number of volunteer work hours                                              101             83              184
4            Number of media outreach events                                                     0              2                2
5            Number of community outreach education events conducted                             2              4                6
6            Estimated number of people reached by community outreach education
             events                                                                            165            271              436
7            Number of group education sessions for beneficiaries                                0              9                9
8A           Number of beneficiaries who attended group education sessions                       0            340              340
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                   0            168              168
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                           0            161              161
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                  0            175              175
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                        11            163              174
10           Total number of simple inquiries received                                          72             83              155
11           Total number of simple inquiries resolved                                          72             83              155
12           Number of inquiries involving complex issues received                              22              0               22
13A          Number of inquiries involving complex issues referred for further action            4              0                4
13B          Total dollar amount referred for further action                                  $149             $0             $149
14           Number of complex issues resolved                                                  19              4               23
15           Number of complex issues pending further action                                     0              0                0
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                   $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0


                                                                                                     81
A P P E N D       I X       ~     D




                                      

                                      Tennessee – Upper Cumberland Development District, Cookeville
In operation since: July 2001                                                             Jan–June        July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                  13             35               40
2            Total number of volunteer training hours                                            9            311              320
3            Total number of volunteer work hours                                              118            156              274
4            Number of media outreach events                                                     9             55               64
5            Number of community outreach education events conducted                           140             61              201
6            Estimated number of people reached by community outreach education
             events                                                                         13,359           4,296          17,655
7            Number of group education sessions for beneficiaries                               19             55               74
8A           Number of beneficiaries who attended group education sessions                     263           1,510           1,773
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                  42              3               45
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                          27              3               30
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                 19              0               19
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                        79             74              153
10           Total number of simple inquiries received                                         103            148              251
11           Total number of simple inquiries resolved                                          98            148              246
12           Number of inquiries involving complex issues received                              19             40               59
13A          Number of inquiries involving complex issues referred for further action            1             11               12
13B          Total dollar amount referred for further action                                  $359             $0             $359
14           Number of complex issues resolved                                                   9             21               30
15           Number of complex issues pending further action                                    44             44               44
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                     $133           $386             $518
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                   $0             $0               $0
17A –17D     Total savings attributable to the projects                                       $133           $386             $518


                                                                                                     82
A P P E N D       I X       ~     D




                                      

                                       Texas – Better Business Bureau Education Foundation, Houston
In operation since: July 2002                                                             Jan–June        July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                   3              8               10
2            Total number of volunteer training hours                                            0              4                4
3            Total number of volunteer work hours                                               16             63               79
4            Number of media outreach events                                                     1              9               10
5            Number of community outreach education events conducted                             5             22               27
6            Estimated number of people reached by community outreach education
             events                                                                            515           5,925           6,440
7            Number of group education sessions for beneficiaries                               38             38               76
8A           Number of beneficiaries who attended group education sessions                   1,569            900            2,469
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                  45             70              115
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                         224             82              306
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                 23             39               62
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         0              1                1
10           Total number of simple inquiries received                                          68             98              166
11           Total number of simple inquiries resolved                                          68             98              166
12           Number of inquiries involving complex issues received                              14             44               58
13A          Number of inquiries involving complex issues referred for further action            1              1                2
13B          Total dollar amount referred for further action                                $8,463         $25,214         $33,677
14           Number of complex issues resolved                                                  23              3               26
15           Number of complex issues pending further action                                    62             62               62
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                   $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0


                                                                                                     83
A P P E N D       I X       ~     D




                                      

                                      Texas – The National Hispanic Council on Aging, Washington, DC
In operation since: July 1999                                                             Jan–June        July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                 166            148              200
2            Total number of volunteer training hours                                        1,987            603            2,590
3            Total number of volunteer work hours                                           20,832           7,030          27,862
4            Number of media outreach events                                                    34              22              56
5            Number of community outreach education events conducted                            76             21               97
6            Estimated number of people reached by community outreach education
             events                                                                          9,949           6,764          16,713
7            Number of group education sessions for beneficiaries                              131             46              177
8A           Number of beneficiaries who attended group education sessions                   3,833           1,652           5,485
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors               2,128            897            3,025
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                       2,186            841            3,027
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                              1,646           1,008           2,654
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                     6,234           4,321          10,555
10           Total number of simple inquiries received                                      11,159           4,378          15,537
11           Total number of simple inquiries resolved                                      11,153           4,377          15,530
12           Number of inquiries involving complex issues received                             158            240              398
13A          Number of inquiries involving complex issues referred for further action           6               0                6
13B          Total dollar amount referred for further action                              $171,267         $22,005       $193,272
14           Number of complex issues resolved                                                 241            113              354
15           Number of complex issues pending further action                                    78             78               78
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others       $2,670          $1,720          $4,389
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                   $1,085             $0           $1,085
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                   $0           $130             $130
17A –17D     Total savings attributable to the projects                                     $1,085           $130           $1,215


                                                                                                     84
A P P E N D       I X       ~     D




                                      

                                                   Utah – Utah Legal Services, Inc., Salt Lake City
In operation since: July 1999                                                               Jan–June           July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                   122               116              152
2            Total number of volunteer training hours                                            127               219              346
3            Total number of volunteer work hours                                               4,084             3,129           7,213
4            Number of media outreach events                                                   53,656           122,920         176,576
5            Number of community outreach education events conducted                              36                30               66
6            Estimated number of people reached by community outreach education
             events                                                                             5,322             2,363           7,685
7            Number of group education sessions for beneficiaries                                 49                41               90
8A           Number of beneficiaries who attended group education sessions                      3,091             5,036           8,127
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                    56               120              176
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                           153               209              362
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                  143                25              168
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         115               655              770
10           Total number of simple inquiries received                                            65               198              263
11           Total number of simple inquiries resolved                                            64               196              260
12           Number of inquiries involving complex issues received                                23                56               79
13A          Number of inquiries involving complex issues referred for further action                 4              0                4
13B          Total dollar amount referred for further action                                   $8,306               $0           $8,306
14           Number of complex issues resolved                                                        3             51               54
15           Number of complex issues pending further action                                      37                37               37
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others             $0                $0               $0
17A          Actual Medicare funds recovered attributable to the projects                         $0                $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                         $0                $0               $0
17C          Actual savings to beneficiaries attributable to the projects                      $1,326               $0           $1,326
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                  $5,909               $0           $5,909
17A –17D     Total savings attributable to the projects                                        $7,236               $0           $7,236


                                                                                                          85
A P P E N D       I X       ~     D




                                      

                                              Vermont – Community of Vermont Elders, Montpelier
In operation since: July 2003                                                             Jan–June        July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                  29             21               34
2            Total number of volunteer training hours                                          265            101              366
3            Total number of volunteer work hours                                              282            390              672
4            Number of media outreach events                                                    19             34               53
5            Number of community outreach education events conducted                             1              0                1
6            Estimated number of people reached by community outreach education
             events                                                                            450              0              450
7            Number of group education sessions for beneficiaries                               19             21               40
8A           Number of beneficiaries who attended group education sessions                     358            631              989
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                  10             54               64
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                          21             72               93
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                  6             36               42
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         0              0                0
10           Total number of simple inquiries received                                           0              1                1
11           Total number of simple inquiries resolved                                           0              1                1
12           Number of inquiries involving complex issues received                              12              2               14
13A          Number of inquiries involving complex issues referred for further action           3               1                4
13B          Total dollar amount referred for further action                                  $128             $0             $128
14           Number of complex issues resolved                                                  10              2               12
15           Number of complex issues pending further action                                    16             16               16
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                   $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0


                                                                                                     86
A P P E N D       I X       ~     D




                                       

                                      Virginia – Virginia Association of Area Agencies on Aging, Richmond
In operation since: July 1999                                                             Jan–June          July–Dec   Total for 2008
                                           OUTPUT MEASURES
1            Total number of active volunteers                                                  58               81               82
2            Total number of volunteer training hours                                          155                0              155
3            Total number of volunteer work hours                                                0             1,880           1,880
4            Number of media outreach events                                                30,704            27,006          57,710
5            Number of community outreach education events conducted                            97               81              178
6            Estimated number of people reached by community outreach education
             events                                                                         13,104             7,189          20,293
7            Number of group education sessions for beneficiaries                               65               94              159
8A           Number of beneficiaries who attended group education sessions                   1,891             2,181           4,072
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                   3               24               27
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                           3               16               19
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                  3                6                9
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         1                0                1
10           Total number of simple inquiries received                                          58               88              146
11           Total number of simple inquiries resolved                                          53               83              136
12           Number of inquiries involving complex issues received                               0                1                1
13A          Number of inquiries involving complex issues referred for further action            0                1                1
13B          Total dollar amount referred for further action                                    $0             $359             $359
14           Number of complex issues resolved                                                   0                0                0
15           Number of complex issues pending further action                                     8                8                8
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0               $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0               $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0               $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0               $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                   $0               $0               $0
17A –17D     Total savings attributable to the projects                                         $0               $0               $0


                                                                                                     87
A P P E N D       I X       ~     D




                                      

                            Virgin Islands – Department of Human Services, Senior Citizens Affairs, St. Croix
In operation since: July 2005                                                             Jan–June        July–Dec    Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                  44               23              48
2            Total number of volunteer training hours                                          308               88             396
3            Total number of volunteer work hours                                              840              240           1,080
4            Number of media outreach events                                                     0              139             139
5            Number of community outreach education events conducted                            17               11              28
6            Estimated number of people reached by community outreach education
             events                                                                          1,613              768           2,381
7            Number of group education sessions for beneficiaries                                0               40              40
8A           Number of beneficiaries who attended group education sessions                       0              292             292
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                   0              161             161
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                           0              172             172
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                  0              113             113
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         0               37              37
10           Total number of simple inquiries received                                           0                6               6
11           Total number of simple inquiries resolved                                           0               6                6
12           Number of inquiries involving complex issues received                               0                0               0
13A          Number of inquiries involving complex issues referred for further action           0                0                0
13B          Total dollar amount referred for further action                                    $0               $0              $0
14           Number of complex issues resolved                                                   0               0                0
15           Number of complex issues pending further action                                     0               0                0
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0              $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0              $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0               $0              $0
17C          Actual savings to beneficiaries attributable to the projects                       $0              $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                   $0               $0              $0
17A –17D     Total savings attributable to the projects                                         $0               $0              $0


                                                                                                     88
A P P E N D       I X       ~     D




                                      

                                           Washington – Office of the Insurance Counselor, Olympia
In operation since: July 1999                                                             Jan–June        July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                  57             72               72
2            Total number of volunteer training hours                                        1,026             67            1,093
3            Total number of volunteer work hours                                            4,751            753            5,504
4            Number of media outreach events                                                   245             32              277
5            Number of community outreach education events conducted                            20             82              102
6            Estimated number of people reached by community outreach education
             events                                                                            836           6,794           7,630
7            Number of group education sessions for beneficiaries                               23             13               36
8A           Number of beneficiaries who attended group education sessions                     824            200            1,024
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                   2             11               13
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                           2             15               17
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                  4              0                4
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                         0             77               77
10           Total number of simple inquiries received                                           0             63               63
11           Total number of simple inquiries resolved                                           0             63               63
12           Number of inquiries involving complex issues received                             260             24              284
13A          Number of inquiries involving complex issues referred for further action           0               0                0
13B          Total dollar amount referred for further action                                    $0         $10,960         $10,960
14           Number of complex issues resolved                                                   1             35               36
15           Number of complex issues pending further action                                    24             24               24
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                   $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0


                                                                                                     89
A P P E N D       I X       ~     D




                                      

                                                   West Virginia – AARP Foundation, Charleston
In operation since: July 2003                                                             Jan–June         July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                   40             68               68
2            Total number of volunteer training hours                                            76             85              161
3            Total number of volunteer work hours                                              642             996            1,638
4            Number of media outreach events                                                   177             359              536
5            Number of community outreach education events conducted                             34             15               49
6            Estimated number of people reached by community outreach education
             events                                                                         16,436           15,112          31,548
7            Number of group education sessions for beneficiaries                                26             20               46
8A           Number of beneficiaries who attended group education sessions                   1,598            1,096           2,694
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                   87            122              209
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                         209             180              389
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                  57             47              104
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                       125             407              532
10           Total number of simple inquiries received                                         143             540              683
11           Total number of simple inquiries resolved                                         143             538              681
12           Number of inquiries involving complex issues received                               34             51               85
13A          Number of inquiries involving complex issues referred for further action             2             29               31
13B          Total dollar amount referred for further action                                $1,665          $16,853         $18,518
14           Number of complex issues resolved                                                    2             33               35
15           Number of complex issues pending further action                                     83             83               83
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others            $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                        $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                        $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                        $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                    $0             $0               $0
17A –17D     Total savings attributable to the projects                                          $0             $0               $0


                                                                                                      90
A P P E N D       I X       ~     D




                                      

                                          Wisconsin – Coalition of Wisconsin Aging Groups, Madison
In operation since: July 1997                                                             Jan–June        July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                  35             34               47
2            Total number of volunteer training hours                                           17             99              116
3            Total number of volunteer work hours                                              224             250             474
4            Number of media outreach events                                                 3,774           3,616           7,390
5            Number of community outreach education events conducted                            61             42              103
6            Estimated number of people reached by community outreach education
             events                                                                          3,665           4,708           8,373
7            Number of group education sessions for beneficiaries                               53             40               93
8A           Number of beneficiaries who attended group education sessions                   1,668           1,056           2,724
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                  49            139              188
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                          58            105              163
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                 28             34               62
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                        31              4               35
10           Total number of simple inquiries received                                         217            239              456
11           Total number of simple inquiries resolved                                         194            221              415
12           Number of inquiries involving complex issues received                              17             22               39
13A          Number of inquiries involving complex issues referred for further action            8              2               10
13B          Total dollar amount referred for further action                                    $0             $0               $0
14           Number of complex issues resolved                                                  11             13               24
15           Number of complex issues pending further action                                    20             20               20
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others           $0             $0               $0
17A          Actual Medicare funds recovered attributable to the projects                       $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                       $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                       $0             $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                   $0             $0               $0
17A –17D     Total savings attributable to the projects                                         $0             $0               $0


                                                                                                     91
A P P E N D       I X       ~     D




                                      

                                                      Wyoming – Senior Citizens, Inc., Riverton
In operation since: July 2000                                                              Jan–June          July–Dec   Total for 2008
                                          OUTPUT MEASURES
1            Total number of active volunteers                                                     10              2               12
2            Total number of volunteer training hours                                             160             16              176
3            Total number of volunteer work hours                                                   0             10               10
4            Number of media outreach events                                                        0              2                2
5            Number of community outreach education events conducted                               15             30               45
6            Estimated number of people reached by community outreach education
             events                                                                               569           1,499           2,068
7            Number of group education sessions for beneficiaries                                   5              2                7
8A           Number of beneficiaries who attended group education sessions                        247             50              297
8B           Increase in the number of beneficiaries who understand how reading their
             Medicare Summary Notice can help identify billing fraud or errors                      0             16               16
8C           Increase in the number of beneficiaries who understand why it is important
             to seek assistance with billing questions                                              0             16               16
8D           Increase in the number of beneficiaries who know why it is important to
             protect their Medicare and Social Security numbers                                     0             12               12
9            Number of one-on-one counseling sessions held with or on behalf of a
             beneficiary                                                                            0              4                4
10           Total number of simple inquiries received                                             24             48               72
11           Total number of simple inquiries resolved                                            24              48               72
12           Number of inquiries involving complex issues received                                  0              1                1
13A          Number of inquiries involving complex issues referred for further action              0               0                0
13B          Total dollar amount referred for further action                                       $0             $0               $0
14           Number of complex issues resolved                                                     0               0                0
15           Number of complex issues pending further action                                       0               0                0
16           Cost avoidance on behalf of Medicare, Medicaid, beneficiaries, or others             $0              $0               $0
17A          Actual Medicare funds recovered attributable to the projects                          $0             $0               $0
17B          Actual Medicaid funds recovered attributable to the projects                          $0             $0               $0
17C          Actual savings to beneficiaries attributable to the projects                         $0              $0               $0
17D          Other savings attributable to the projects (e.g., Supplemental Insurance,
             Social Security)                                                                      $0             $0               $0
17A –17D     Total savings attributable to the projects                                            $0             $0               $0


                                                                                                        92
           Δ       A P P E N D I X               ~     E




                            Performance Measures Definitions


The following list includes the definitions of the performance measures for 2008.




                                                                                    93
A P P E N D            I X       ~     E




                                                           Definitions


ACTIVE VOLUNTEER 	                          An individual who donates time or resources and is trained to assist with
                                            implementing the project.

MEDIA OUTREACH	                             Any airing or publishing of media (e.g., print, radio, television,
EVENT 	                                     or electronic) to educate about Medicare/Medicaid fraud and the services
                                            of the project.2

COMMUNITY OUTREACH	                        Any education activity conducted by project staff or volunteers that
EDUCATION EVENT	                           is not a group education session, one-on-one session, or media outreach
                                           activity.

GROUP EDUCATION 	                           A formal gathering led by project staff or volunteers to educate
SESSION	                                    beneficiaries, family members, caregivers, and others on detecting fraud,
                                            waste, and abuse in the health care system and services offered by the
                                            project.

ONE-ON-ONE COUNSELING	                      A meeting between project staff or volunteers and an
SESSION 	                                   individual beneficiary and/or his or her family for the purpose of
                                            discussing or gathering information about potential health care fraud,
                                            waste, or abuse. One-on-one counseling sessions may include beneficiary
                                            counseling, information gathering, or information sharing.

SIMPLE INQUIRY 	                            A brief contact initiated by a consumer and/or beneficiary that is resolved
                                            with minimal time and research or review. Simple inquiries typically do
                                            not require individual demographic or private personal information, such
                                            as a Medicare number or information about a medical condition.

COMPLEX ISSUE 	                             An inquiry that generally requires the project staff or volunteer to obtain
                                            beneficiary personal identifying information and detailed information
                                            related to the issue, complaint, or allegation in order to conduct further
                                            investigation or referral.



2
 For 2008, the Administration on Aging clarified that the Senior Medicare Patrol projects should count each time an event was aired
or an article published.




                                                                                                                            94
COMPLEX ISSUE           A complex issue referred to a Medicare contractor,
REFERRED FOR FURTHER    an investigative agency, or other appropriate organization.
ACTION

COMPLEX ISSUE 	         A complex issue successfully closed by a project, a
RESOLVED	               Medicare contractor, an investigative agency, or another appropriate
                        organization.

COMPLEX ISSUE PENDING   Any complex issue—irrespective of when it was received—that remains
FURTHER ACTION          unresolved.


COST AVOIDANCE	         Health care expenditures for which the Medicare program, the Medicaid
                        program, a beneficiary, or other entity (e.g., secondary health insurer,
                        pharmacy) was relieved of responsibility for payment as a result of the
                        projects.

MEDICARE FUNDS 	        Money saved or recouped to the Medicare Trust Fund as a
RECOVERED	              result of the projects. This applies to money recouped through a Medicare
                        contractor, a law enforcement agency, or directly to Medicare at the
                        provider level.

MEDICAID FUNDS	         Money saved or recouped to Medicaid as a result of the
RECOVERED	              projects. This applies to money recouped through a Medicaid Fraud
                        Control Unit, a law enforcement agency, or directly to Medicaid at the
                        provider level.

SAVINGS TO THE 	        Money saved or recouped to an individual as a result of the
BENEFICIARY	            projects (e.g., copayments, deductibles, or any other out-of-pocket
                        expenses).

OTHER SAVINGS	          Money saved or recouped to an entity other than the Medicare program,
                        the Medicaid program, or beneficiaries (e.g., secondary health insurance,
                        pharmacy) as a result of the projects.




                                                                                              95
